<html>
<title> - CUBA'S OPPRESSIVE GOVERNMENT AND THE STRUGGLE FOR JUSTICE</title>
<body><pre>[Senate Hearing 106-992]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-992

       CUBA'S OPPRESSIVE GOVERNMENT AND THE STRUGGLE FOR JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2000

                               __________

                          Serial No. J-106-67

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
72-703                      WASHINGTON : 2001
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001




                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    38

                               WITNESSES

Benda, Walter, Children's Rights Council, Max Meadows, VA........    45
Formell, Juan Carlos, Queens, NY,................................    11
Fernandez, Alina, Daughter of Fidel Castro.......................     9
Gonzalez, Manuel, Miami, FL......................................    50
Gonzalez, Marisleysis, Miami, FL.................................    19
Martinex, Mel R., Chief Executive, Orange County, FL.............    15
Paul, K.A., President, Global Peace Initiative, Houston, TX......    53

                       Submissions for the Record

Greenberg, Elisa, Cuban American Alliance Education Fund, 
  statement and attachment.......................................    61
Jackson Lee, Hon. Sheila, a U.S. Representative in Congress from 
  the State of Texas, prepared statement.........................    57
O'Laughlin, Jeanne, Sister, prepared statement...................    44
Rangel, Hon. Charles, a U.S. Representative in Congress from the 
  State of New York, prepared statement..........................    59
Wilhelm, Silvia, Executive Director, Americans for Humanitarian 
  Trade with Cuba, prepared statement............................    60

 
       CUBA'S OPPRESSIVE GOVERNMENT AND THE STRUGGLE FOR JUSTICE

                              ----------                              


                        WEDNESDAY, MARCH 1, 2000

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:22 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Smith, Leahy, Feinstein, Torricelli, 
Schumer, and Mack [ex officio].

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    The Chairman. Well, if we can, we will begin here. We are 
pleased this morning to hold a hearing on Cuba and to shed some 
light on America's very special relationship with, and affinity 
for, the Cuban people.
    The recent media focus on the plight of little Elian 
Gonzalez has raised Cuba once again to the forefront of our 
national awareness. Many of us still remember the Mariel 
boatlift of 1980 and the serious impact the escape of over 
100,000 Cubans to our shores had on us, even affecting 
presidential and gubernatorial elections, of course, at the 
time.
    Cuba is unlike any of our neighbors. Our relationship with 
the Cuban people goes back right from the very beginning. 
President Thomas Jefferson entertained pleas for American 
assistance by Cuban representatives inveighing against their 
tyrannical rulers as long as 200 years ago. Cuba's first war of 
independence was launched by Cuban patriots from New Orleans, 
and Cuba's tricolor flag was designed and first sown on 
American soil.
    The American and Cuban people are inextricably bound in a 
way that only happens when two peoples shed their blood in a 
common cause, as we did in 1898 for the cause of Cuban liberty 
in the Spanish-American War, or what Cubans call the Second War 
of Cuban Independence.
    People forget that prior to Castro, Cuba's cities had the 
highest standard of living in Latin America and the Caribbean, 
second in many ways only to the United States. We can only 
imagine how this nation might have flourished without 
communism.
    It is inconceivable that a government could hand off over 
one-tenth of its population to others and not recognize this 
mass exodus as a colossal failure, not to mention the pain 
caused by the separation of families and the anguish caused to 
people forced to uproot and leave their own homes.
    Cuba also presents a question of conscience for the 
American people. In the same way that we can take pride in the 
achievement of bringing down the Berlin Wall, we might well see 
as another imperative our continuing obligation to the cause of 
the Cuban people.
    It seems to me that too many are already willing to turn a 
blind eye to Cuba, forgetting that the underlying rationale for 
the embargo still holds--deligitimizing the Castro regime--as 
well as forgetting that we would do so at the expense of the 
Cuban people.
    Remarkably, all this has been brought to the forefront of 
our national attention by the plight of one little boy. Since 
Elian Gonzalez was rescued from the waters that claimed his 
mother and others fleeing Castro's regime, I have said that our 
country needed to do what is right for this child. As we ponder 
the best course of action for Elian, we simply cannot ignore 
the fact that this is not just a custody matter, but a case 
where one of the options considered is returning this child to 
one of the last prison nations in the world, Fidel Castro's 
wretched communist dictatorship.
    The State Department released its annual human rights 
report last Friday and its first sentence, ``Cuba is a 
totalitarian state controlled by Fidel Castro,'' is followed by 
31 pages of Castro's human rights violations. I would like this 
report to be entered into the record at this point.
    [The report referred to is retained in the committee 
files.]
    The Chairman. From it, we are reminded that America's core 
principles enabling life, liberty and the pursuit of happiness 
have no place in Cuba's dictatorship, where the state rules 
above the family and the pursuit of faith can only bring the 
police to your door.
    A particular focus of today's hearing is to see how 
families are affected in this dictatorship and what decisions 
they are focused to make, and to consider that a little boy's 
life under Castro's gun would include the following.
    The boy will play in a neighborhood under the watchful eye 
of agents, informers and the ubiquitous Neighborhood Committee 
for the Defense of the Revolution. All his food and basic 
necessities will be rationed, despite the fact that Cuba has 
economic relations with all countries except ours. He will only 
have toys if his father has access to either Party sources or 
hard currency.
    Perhaps he may celebrate Christmas, a religious holiday 
banned from 1969 to 1997, and he will be conscripted into one 
of the last remaining Marxist militaries in the world, which 
not that long ago fought for dictators in Africa as part of 
Fidel's bloody commitment to global communism. As Elian grows 
up in Castro's island jail, he will never be able to express 
his political views in public. He will never have a choice as 
to what he can read and he will neverbe free to come here 
again.
    As we commence today's discussion, I want to thank all of 
our witnesses for their willingness to travel, often from great 
distances, to share their thoughts and experiences with us at 
this hearing. Before I introduce our witnesses, we shall hear 
from our ranking member, whom I want to thank for overcoming 
scheduling difficulties in holding this hearing today.
    I have also extended an invitation for my friend, 
Congressman Rangel, to sit at the dais with us and listen to 
today's hearing, if he so chooses. And I have also indicated 
that we probably will have a follow-on hearing to this one and 
make sure that all points of view will be heard.
    Senator Leahy had informed that witnesses of his choosing 
could not make it today and I have responded by pledging 
another hearing, should he wish one, in which to hear the 
testimony of those witnesses. But I could not postpone today's 
hearing, given the great inconvenience that would have been 
caused to our witnesses, and given the Attorney General's 
inability to commit to postponing any deportation of Elian 
until after such time as we had our hearing.
    Senator Leahy has also expressed concern that nothing that 
is discussed in today's hearing should interfere with the 
pending litigation concerning Elian, and I am, of course, 
entirely in agreement with that. To that end, as I have written 
Senator Leahy, we will pursue a cautious approach today that 
will avoid discussion of any legal immigration issues presently 
before the court.
    With that, I would like to turn to our ranking member, 
Senator Leahy, for his remarks.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman, and I appreciate 
your usual courtesies in these matters. Frankly, I regret that 
we are here today. I believe that the Elian Gonzalez issue has 
already been inappropriately politicized at the beginning of 
this Congress by members of this Congress, and that a 6-year-
old boy has been converted into a political symbol.
    A young boy belongs with his parent, not with distant 
relatives. Because we all oppose dictatorships, because we 
oppose Fidel Castro, does not mean that we should also oppose a 
son being with his father. I recall that a Senate bill was 
introduced trying to keep this young boy in the country in the 
opening moments of this Congress and that the Republican 
leadership had announced that it would ram it through the 
Senate as our first item of business. The bill wasn't even 
referred to this committee, the appropriate committee of 
jurisdiction, but held at the Senate desk for expedited action. 
Fortunately, the Republican leadership came to its senses and 
did not do that.
    I do think that the timing, as I have said to the chairman, 
of this hearing is inappropriate. I believe that if we must 
have a hearing about this matter--and, of course, I do not 
question at all the right of the chairman to hold a hearing on 
any matter that he desires at any time, but I think this timing 
is bad. It occurs in the midst of Federal legal proceedings 
brought by Elian Gonzalez' Miami relatives. In fact, there is a 
hearing scheduled on the Government's motion to dismiss this 
case in just 5 days.
    The Judiciary Committee has a special obligation to avoid 
interfering in a particular case currently pending and being 
actively considered in a Federal court, and I appreciate the 
chairman's comments of his own sensitivity to that. We should 
even the appearance of such interference. In fact, our 
traditional practice of not interfering with ongoing cases is 
one of the many good reasons for our rule prohibiting the 
consideration of private relief bills while judicial or 
administrative proceedings continue. I regret that some may say 
this hearing calls into question our adherence to our own 
procedures and our own obligations.
    The Cuban American relatives with temporary custody of 
Elian Gonzalez have said that they will respect the decision of 
the Federal court in that matter, and I applaud them for that. 
And we should also respect the court's independence and ability 
to do its job. This abbreviated committee hearing is no place 
to try to do fact-finding, and I would worry that it might do 
worse and inflame the passions on both sides of this 
controversy.
    I regret that the majority rejected my request that this 
hearing be postponed. I had hoped that if the committee were to 
have a hearing on Cuba and Elian Gonzalez that we could hear 
from the Reverend Bob Edgar, the General Secretary of the 
National Council of Churches and a former member of the House 
of Representatives. The National Council of Churches has done 
important work in Cuba and on this case, and Reverend Edgar 
would have had a great deal to offer at this hearing. But by 
the time we were informed the hearing was to take place, he 
already had a commitment elsewhere. I do appreciate the 
chairman saying that at another time he could be heard.
    We are not going to be hearing from the U.S. Department of 
State, nor will we be in a position to effectively consider the 
potential impact of the ongoing dispute over Elian Gonzalez on 
U.S. parents who are fighting to gain custody of their children 
in other countries. Mary Ryan, the Assistant Secretary of State 
for Consular Affairs, has testified in the Federal court case 
that a failure to enforce the INS decision that Elian Gonzalez 
should be reunited with his father would, ``be inconsistent 
withthe principles we advocate on behalf of the United States 
and could have potentially lasting negative implications for left-
behind parents in the United States and for U.S. citizen children taken 
to foreign countries.''
    We will hear from a U.S. parent who has struggled for years 
just for the right to see his children in Japan, and who 
believes, as do other American parents in similar 
circumstances, that to preserve American credibility we have to 
practice what we preach and reunite Elian with his father.
    In fact, my office worked for months on such a case of an 
American child who was taken abroad by an estranged parent. Had 
it not been for the active intervention of the Government of 
Egypt, the child would not have been reunited with his American 
mother. I thank Walter Benda for being with us today to tell 
his story.
    We will not hear from the Justice Department or the INS 
because they are involved in the ongoing litigation and thus 
cannot discuss it in this forum. Now, it is politically 
expedient for some to want to relive the Cold War, to continue 
a decades-old opposition to the Castro regime, but without 
regard to its implications for our national interests and 
international position.
    I am troubled that this hearing and the House committee 
subpoena issued for this young boy crosses into another 
dangerous arena in which we are using domestic political 
institutions to undermine lawful judicial authority for 
partisan gain. I find that regrettable.
    Now, let me be clear on one thing. I am a critic of the 
repressions of the Castro government. Unlike someone who just 
gives speeches about what they feel Fidel Castro has done wrong 
in stifling dissent, I have gone to Cuba and told him 
personally how wrong that it is. He doesn't agree with me, 
obviously, but if I am going to say it here, I am also going to 
say it there.
    No one more than I wants the Cuban people to have the 
freedoms that we have, and I deplore the way Fidel Castro has 
used Elian Gonzalez to further his own feud with the United 
States. But as Senator Dodd has said, there are many good 
families living under bad governments. I strongly believe that 
the well-being of Elian Gonzalez will be better served by 
making sure that he has the support and love of his father and 
grandparents than in making him a symbol of the anti-Castro 
movement.
    I also question why the principle asserted by those who 
want him to stay in the United States would not also apply to a 
small child from China or any other repressive government. Do 
the proponents of this citizenship bill believe that any child 
living in a communist country is a victim of child abuse? If 
so, do they support granting citizenship to any child who 
arrives here from a communist country, no matter how young and 
no matter how the child's parents react? What about the billion 
children who live in countries marked by extreme poverty? 
Should they all be American citizens? That is what the bill 
implies, but I doubt that 10 percent of the American people 
would support that. In fact, 67 percent of the American people 
feel this boy should be returned to his father.
    Now, I think this entire controversy unfortunately has 
served only to benefit Fidel Castro. He has used our refusal to 
return Elian Gonzalez to unite his people and once again 
consolidate his political position, just as he uses our embargo 
to explain away his own failed economic policy.
    Indeed, this set of events has further weakened our already 
ineffective policy toward Cuba and offered a perfect occasion 
for Castro to sharpen the ``us against them'' rhetoric that he 
has returned to repeatedly and successfully over his four 
decades of rule. In fact, I think the United States should be 
attempting to engage ordinary Cubans rather than antagonizing 
them in this way. That process of engagement should include 
both the lifting of the embargo and an increase in contact 
between U.S. citizens and Cuba. In other words, we should be 
tearing down these barriers rather than building them higher.
    It is true that Elian is a victim. He is a victim of a 
pitched battle which has been largely shaped by the political 
priorities of others rather than the basic but critically 
important needs of a small boy. I have been told by Elian's 
grandmothers that he and his father, Juan Gonzalez, have always 
had a close and loving relationship. They said that Elian 
regularly spent most days and nights of the week with his 
father, and that even though his father and mother divorced, 
they remained friends.
    Today, we will hear from Elian's uncle, Manuel Gonzalez. He 
lives in Miami, but he has come forward while recovering from a 
recent illness to tell us that Elian would be better off with 
his father, even if it means his return to Cuba. He says that 
Juan Gonzalez is a good father who deserves to be with his son.
    Now, nobody has disputed that the father loves his son. No 
one has presented evidence that he is an unfit parent. It was 
entirely predictable that after a thorough investigation in 
which he was twice interviewed at length, the INS concluded 
that his father is the lawful guardian with the sole right to 
make decisions.
    As a grandparent and a parent, I cannot imagine anyone, 
especially people in a foreign country, telling me what is in 
the best interest of either my sons, my daughter, or my 
grandchild, or even worse, preventing me from seeing them. I 
think reuniting them is the best thing to do to advance 
America's interests. We should rise above temptations to 
meddle.
    Lastly, I would note that just yesterday we had another 
tragic incident of school violence. I recall that on the day of 
the shocking violence at Columbine High School last April, this 
committee was talking about flag burning, another political 
issue. Instead of dealing with political issues that do not 
deal with the things at hand, we ought to be redoubling our 
efforts to enact the Hatch-Leahy juvenile crime legislation and 
its sensible public safety provisions that passed the Senate 
last May with 73 votes.
    I do not fault Senator Hatch on this. I know he is doing 
what he can do on that, but I would renew a call again to the 
Republican leadership of the House and the Senate to let us go 
forward with that bill. If Columbine was not enough to shock us 
into moving forward with it, let's think at least that 
yesterday might have been.
    Thank you, Mr. Chairman. I will put my whole statement in 
the record.
    [The prepared statement of Senator Leahy follows:]

                  Prepared Statement of Senator Leahy

    I regret that we are here today. I believe that the Elian Gonzalez 
issue has already been inappropriately politicized at the beginning of 
this Congress, and that a 6-year-old boy has been converted into a 
political symbol. A young boy belongs with his parent, not with distant 
relatives.
    I recall that the Senate bill was introduced trying to keep this 
young boy in the country in the opening moments of this Congress and 
that the Republican leadership had contemplated ramming it through the 
Senate as our first item of business. The bill was never even referred 
to this Committee but held at the Senate desk for expedited action. 
Fortunately, the Republican leadership came to its senses.
    Unfortunately, we are proceeding at this inappropriate time with 
this hearing in this Committee. I believe that even if we must have a 
hearing about this matter, the timing of this hearing is particularly 
ill-advised. This hearing occurs in the midst of federal legal 
proceedings brought by Elian Gonzalez' Miami relatives--indeed, there 
is a hearing scheduled on the government's motion to dismiss this case 
in just five days. The Judiciary Committee has a special obligation to 
avoid interfering in a particular case currently pending and being 
actively considered in federal court. We should avoid even the 
appearance of such interference. Indeed, our traditional practice of 
not interfering with ongoing cases is one of the many good reasons for 
our rule prohibiting the consideration of private relief bills while 
judicial or administrative proceedings continue. I regret that this 
hearing may call into question our adherence to that obligation. The 
Cuban-American relatives with temporary custody of Elian Gonzalez have 
said that they will respect the decision of the federal court in that 
matter, and we should respect the court's independence and ability to 
do its job. This abbreviated Committee hearing is no place to try to do 
factfinding, or worse, inflame the atmospherics surrounding that 
decision.
    I regret that the majority rejected my request that this hearing be 
postponed. I had hoped that if this Committee were to have a hearing on 
Cuba and Elian Gonzalez, that we could hear from Rev. Bob Edgar, the 
general secretary of the National Council of Churches and a former 
member of the House of Representatives. The National Council of 
Churches has done important work in Cuba and on the Elian Gonzalez 
case, and Bob Edgar would have had a great deal to offer at this 
hearing. By the time we were informed that this hearing was to take 
place, however, Rev. Edgar already had a commitment elsewhere for 
today.
    We will not be hearing from the United States Department of State 
nor will we be in a position to effectively consider the potential 
impact of the ongoing dispute over Elian Gonzalez on U.S. parents who 
are fighting to gain custody of their children in other countries. Mary 
Ryan, the Assistant Secretary of State for Consular Affairs, has 
testified in the federal court case that a failure to enforce the INS' 
decision that Elian Gonzalez should be reunited with his father would 
``be inconsistent with the principles we advocate on behalf of the 
United States and could have potentially lasting negative implications 
for left-behind parents in the United States and for U.S. citizens 
children taken to foreign countries.''
    We will hear later from a U.S. parent who has struggled for years 
just for the right to see his children in Japan, and who believes, as 
do other American parents in similar circumstances, that to preserve 
American credibility we must practice what we preach and reunite Elian 
Gonzalez and his father. In fact, my office worked for months on such a 
case of an American child who was taken abroad by an estranged parent. 
Had it not been for the active intervention of the Government of Egypt, 
the child would not have been reunited with his American mother. I 
thank Walter Benda for being with us today to tell his story and to 
provide needed balance and perspective.
    We will not hear from the Justice Department or the INS because 
they are involved in the ongoing litigation and therefore are unable to 
discuss it in this forum.
    While it is politically expedient for some to want to relive the 
Cold War and to continue a decades-old opposition to the Castro regime 
without regard to its implications for our national interests and 
international position, I am troubled that this hearing and the House 
Committee subpoena issued for young Elian Gonzalez crosses into another 
dangerous arena in which we are using domestic political institutions 
to undermine lawful judicial authority for partisan gain. I find that 
most regrettable.
    Let me be clear: I am a critic of the repressions of the Castro 
government. No one more than I wants the Cuban people to have the 
freedoms that we have. And I deplore the way Fidel Castro has used 
Elian Gonzalez to further his own feud with the United States. But as 
Senator Dodd has said, there are many good families living under bad 
governments. I strongly believe that the well-being of Elian Gonzalez 
will be better served by making sure that he has the support and love 
of his father and grandparents than in making him a symbol of the anti-
Castro movement.
    I also question why the principle asserted by those who want Elian 
Gonzalez to stay in the United States would not also apply to a small 
child from China or any other repressive government. Do the proponents 
of this citizenship bill believe that any child living in a Communist 
country is a victim of child abuse? If so, do they support granting 
citizenship to any child who arrives here from a Communist country, no 
matter how young, and no matter how the child's parent reacts? What 
about the billion children who live in countries marked by extreme 
poverty? Should they all be American citizens? That is what this bill 
implies, but I doubt that 10 percent of the American people would 
support that. In fact, 67 percent believe Elian should be returned to 
his father.
    As someone who has traveled to Cuba and talked to Cubans from all 
walks of life, I believe that this entire controversy has served only 
to benefit Castro. Castro has used our refusal to return Elian Gonzalez 
to unite his people and once again consolidate his political position. 
Indeed, this set of events has further weakened our already ineffective 
policy toward Cuba and offered a perfect occasion for Castro to sharpen 
the ``us against them'' rhetoric that he has returned to repeatedly and 
successfully over his four decades of rule. In my view, the United 
States should be attempting to engage ordinary Cubans rather than 
antagonizing them by acting in such a heavy-handed way toward a 6-year-
old child. This process of engagement should include both a lifting of 
the embargo and an increase in contact between Americans and Cubans--in 
other words, we should be tearing down the barriers between our 
countries not building them even higher.
    Our policy toward Cuba today is misguided and counterproductive, 
and the tragic situation that has ensnared young Elian Gonzalez only 
confirms that fact. Since Elian was found clinging to an inner tube off 
the Florida coast, there has been a mad scramble to turn him into a 
``symbol''--as one anti-Castro leader in Miami said--of the Cuban exile 
community's years of frustration with Fidel Castro. Paraded in front of 
cameras and showered with gifts since his arrival in the United States, 
he has been portrayed as a destitute young victim of the Castro regime. 
It is true that Elian is a victim. He is the victim of a pitched battle 
which has been largely shaped by the political priorities of others 
rather than the basic but critically important needs of a small boy who 
has suffered the catastrophic loss of his mother.
    In January I met with Elian's grandmothers. They told me that Elian 
and his father, Juan Gonzalez, have always had a close and loving 
relationship. They said that Elian regularly spent most days and nights 
of the week with his father, and that even though his father and mother 
had divorced they remained close friends. Today we will hear from 
Elian's uncle Manuel Gonzalez. Manuel Gonzalez lives in Miami, but he 
has come forward while recovering from a recent illness to tell us that 
Elian would be best off with his father, even if that means that he is 
returned to Cuba. He says that Juan Gonzalez is a good father who 
deserves to be with his son.
    Indeed, no one has disputed that Juan Gonzalez loves his son, and 
no one has presented evidence that he is an unfit parent. It was 
entirely predictable that after a thorough investigation--in which Juan 
Gonzalez was twice interviewed at length--the INS concluded that his 
father is his lawful guardian with the sole right to make decisions 
about his future.
    Reuniting Elian and his father is the right thing to do. As a 
grandparent myself, I cannot imagine anyone, especially people in a 
foreign country, telling me what is in the best interest of my 
grandchild, or, even worse, preventing me from seeing him.
    Reuniting Elian and his father is the best thing to do to advance 
American interests--and the interests of American parents whose 
children have been taken abroad without their consent. Sadly, such 
abductions are not rare, and we should take no action that encourages 
them.
    This boy belongs with his father, and we should rise above 
temptations to meddle and to prevent Elian from rejoining his father.

    The Chairman. Thank you, Senator Leahy.
    We have invited Congresswoman Sheila Jackson Lee to sit in 
and listen to these hearings as well, and, of course, Senator 
Mack from Florida to sit in and listen. We have invited all of 
them. We are happy to have you here, honored to have you here.
    I welcome the four witnesses on our first panel this 
morning and, of course, the others I will welcome later. Our 
first witness--and you can please take your seats, if you 
will--our first witness has traveled from Spain to share her 
views with this committee, but this is certainly but one of the 
many journeys in this courageous woman's life. We welcome Alina 
Fernandez--we are so happy to have you here--the daughter of 
Cuban leader Fidel Castro. On December 13, 1993, when Alina was 
37 years old, she fled Cuba and shared with the world her views 
about that country.
    We really appreciate you making this effort to be here, 
Alina, and we are honored to have you here.
    Ms. Fernandez. Thank you for your invitation.
    The Chairman. Thank you so much.
    The second witness on this panel is Juan Carlos Formell, 
with whom I share a common and great love of music. Mr. Formell 
is a Cuban musician who was recently nominated for a Grammy 
Award for his CD ``Songs from a Little Blue House.'' He has 
been kind enough to give me one of those and I am sure going to 
listen to it today. Mr. Formell escaped Cuba in 1993 and will 
share his experiences with us today. We are grateful to have 
you here.
    Our third witness is Mr. Mel Martinez, Chairman of Orange 
County, FL. Mr. Martinez left Cuba at the age of 15 in 
Operation Pedro Pan, a secret underground program in which 
14,000 Cuban children were whisked from Cuba to Miami due to 
their parents' fears. So we want to thank you for joining us 
today and we certainly look forward to hearing about your 
experiences as well.
    Finally, I want to warmly welcome Marisleysis Gonzalez, the 
cousin of Elian Gonzalez who has cared for Elian since his 
arrival in the United States. Ms. Gonzalez and I had the 
pleasure of being together here recently, and I enjoyed 
speaking with you and chatting with you about this. I know this 
is extremely difficult for you, but I appreciate your coming 
here today. We all do.
    So we will begin with you, Ms. Fernandez, and we will go 
right across the table.

PANEL CONSISTING OF ALINA FERNANDEZ, DAUGHTER OF FIDEL CASTRO; 
    JUAN CARLOS FORMELL, QUEENS, NY; MEL R. MARTINEZ, CHIEF 
EXECUTIVE, ORANGE COUNTY, FL, AND MARISLEYSIS GONZALEZ, MIAMI, 
                               FL

                  STATEMENT OF ALINA FERNANDEZ

    Ms. Fernandez. As a Cuban mother, I can understand fully 
the desperation of another Cuban mother to attempt to cross the 
dangerous Florida Straits in an attempt to take her son out of 
Cuba to live a life of freedom.
    My own experience was less dramatic, for I escaped Cuba in 
1993. I left illegally--I had no other choice--in a manner that 
ridiculed and embarrassed the state security apparatus, which 
is believed to be basically invulnerable. But I do think my own 
experience shows just how difficult it is for any Cuban to 
leave Cuba on their own terms without government permission, 
without paying to leave, and without fear.
    On the other hand, I can also understand the many different 
attitudes and opinions people may have regarding this case. It 
is tragic and it is complex. We all recognize the conflict 
between a child's natural right to be free and to be with his 
family, even as we see in this case that the family is being 
used and manipulated by the Cuban government for political 
purposes and to generate anti-American sentiment.
    What I am unable to understand, however, is how a Nation 
such as the United States of America can allow a dictator to 
manipulate and take advantage of U.S. laws and use them for 
personal political gain. That is what surprises me the most 
about this entire case, that a dictator from a totalitarian 
state without any respect for the rule of law, that does not 
safeguard or protect individual rights, receives the protection 
and respect of a law-abiding society like the United States.
    In Cuba, the terms ``paternal rights'' or ``freedom of 
expression'' are meaningless, and it is truly absurd that such 
a state would impose its own lawless views on your legal 
system. In Cuba, there are many cases of children who have 
their parents crossing the Florida Straits. These children all 
remain hostages of the Cuban government. About 4 years ago, the 
Cuban government sunk a tugboat off its coast that sent 11 
children to their untimely and horrible deaths. In my opinion, 
it is the tragedy of all those Cuban families that have been 
forcibly separated through exile or death crossing the Straits 
or by other means. That is what the case of this little boy 
symbolizes.
    Ladies and gentlemen of the Senate of the U.S. Government, 
with all due respect, you cannot allow this unilateral victory 
on behalf of a dictator. You cannot bend to the wishes of a 
dictator without in any way addressingthe larger issues of 
safeguarding the rights of all Cuban families.
    How can it be that anyone could so forcefully seek the 
return of this boy, who has already suffered too much, to Cuba 
and ignore the many other Cuban families who remain forcibly 
separated from their loved ones by the whims of this dictator?
    I also wish to say that we have to be very clear when we 
speak of ``rights'' in the Cuban context because, as I have 
said, parental rights, family rights, do not exist there. For 
example, if this child is returned to Cuba, when he is 11 years 
old he will be taken from his family and placed in a school 
where he will be allowed to visit them 3 days a month. This is 
the way in which the Cuban government defines the term 
``parental rights.''
    But if I could be allowed to emphasize an earlier point 
that situations such as the one before us today are 
unfortunately not uncommon in the tragedy that has befallen our 
homeland. My point is this, that we cannot pretend to be self-
satisfied in thinking we know the answer as to what should 
become of Elian without attempting in some way to resolve the 
situations of the many other divided Cuban families, families 
divided due to the intolerant, repressive nature of the current 
dictatorship. And this is precisely the issue that the Cuban 
government is attempting to distract attention from in its 
current campaign.
    I know that United States and Cuban officials meet every 
few months to review the implementation of its immigration 
agreement with the Cuban government. If there are those here 
truly interested in the issue of the reunification of Cuban 
families, then they should push to have the issue made a part 
of these discussions. The Cuban government should be pressured 
as part of these talks, and only as the U.S. Government has the 
means and assets to do, to resolve all those cases where 
families are separated due to the Cuban government's refusal to 
allow travel to or from Cuba. I am for the reunification of 
Cuban families, all Cuban families, but in an atmosphere free 
of control and intimidation and not under the terms dictated by 
one government.
    If my appearance here today can in any way lead to such an 
emphasis in the policy of this country with Cuba, then I will 
feel my purpose here will have not been in vain. To continue to 
ignore this situation only invites more tragedies such as the 
one we have before us today and is simply an unwise policy for 
the United States as it faces Cuba's increasingly difficult 
future.
    Thank you for your attention in this matter and I will be 
happy to answer any questions you may have.
    The Chairman. Well, thank you so much.
    [The prepared statement of Ms. Fernandez follows:]

                 Prepared Statement of Alina Fernandez

    As a Cuban mother, I can understand fully the desperation of 
another Cuban mother to attempt to cross the dangerous Florida straits 
in an attempt to take her son out of Cuba to live a life of freedom.
    My own experience was less dramatic, for I escaped Cuba in 1993. I 
left illegally--I had no other choice--in a manner that ridiculed and 
embarrassed the State Security apparatus, which is believed to be 
basically invulnerable. But I do think my own experience shows just how 
difficult it is for any Cuban to leave Cuba on their own terms--without 
government permission, without paying to leave, without fear.
    On the other hand, I can also understand the many different 
attitudes and opinions people may have regarding this case. It is 
tragic and it is complex. We all recognize the conflict between a 
child's natural right to be free and to be with his family, even as we 
see, in this case, that the family is being used and manipulated by the 
Cuban government for political purposes and to generate anti-American 
sentiment.
    What I am unable to understand, however, is how a nation such as 
the United States of America can allow a dictator to manipulate and 
take advantage of U.S. laws, and use them for personal political gain.
    That is what surprises me the most about this entire case. That a 
dictator, from a totalitarian state without any respect for the rule of 
law, that does not safeguard or protect individual rights, receives the 
protection and respect of a law-abiding society like the United States. 
In Cuba, the terms ``Paternal Rights'' or ``Freedom of Expression'' are 
meaningless, and it is truly absurd for such a State to attempt to 
impose its own lawless views on your legal system.
    In Cuba, there are many cases of children who have lost their 
parents crossing the Florida Straits. These children all remain 
hostages of the Cuban government. About four years ago, the Cuban 
government sunk a tugboat off its coast that sent eleven children to 
their untimely and horrible deaths.
    In my opinion, it is the tragedy of all those Cuban families that 
have been forcibly separated, through exile or death crossing the 
straits or by other means, that is what the case of this little boy 
symbolizes.
    Ladies and Gentlemen of the Senate of the United States government, 
with all due respect you cannot allow this unilateral victory on behalf 
of a dictator. You cannot bend to the wishes of a dictator without in 
any way addressing the larger issue of safeguarding the rights of all 
Cuban families. How can it be that any one could so forcefully seek the 
return of this boy, who has already suffered too much, to Cuba and 
ignore the many other Cuban families who remain forcibly separated from 
their loved ones by the whims of this dictator?
    I also wish to say that we have to be very clear when we speak of 
``rights'' in the Cuban context, because, as I said, parental rights, 
family rights do not exist there. For example, if this child is 
returned to Cuba, when he is 11 years old, he will be taken from his 
family and placed in a school where he will be allowed to visit them 
three days a month. This is the way in which the Cuban government 
defines the term ``Parental Rights.''
    But if I could be allowed to emphasize an earlier point: that 
situations such as the one before us today are, unfortunately, not 
uncommon in the tragedy that has befallen our homeland. My point is 
this: that we cannot pretend to be self-satisfied in thinking we know 
the answer as to what should become of Elian without attempting in some 
way to resolve the situations of the many other divided Cuban families, 
families divided due to the intolerant, repressive nature of the 
current dictatorship.
    I know that United States and Cuban officials meet every few months 
to review the implementation of its immigration agreement with the 
Cuban government. If there are those here truly interested in the issue 
of the reunification of Cuban families, then they should push to have 
the issue made a part of those discussions. The Cuban government must 
be pressured--as part of these talks, and only as the U.S. government 
has the means and assets to do--to resolve all those cases where 
families are separated due to the Cuban government's refusal to allow 
travel to or from Cuba. I am for the reunification of Cuban families-
all Cuban families--but in an atmosphere free of control and 
intimidation and not under the terms dictated by one government.
    If my appearance here today can in any way lead to such an emphasis 
in the policy of this country with Cuba then I will feel my purpose 
here will have not been in vain. To continue to ignore this situation 
only invites more tragedies such as the one we have before us today--
and is simply an unwise policy for the United States as it faces Cuba's 
increasingly difficult future. Thank you for your attention in this 
matter and I will be happy to answer any questions you may have.

    The Chairman. Mr. Formell, we will turn to you. Now, we 
have an interpreter for those who need it. Get fairly close to 
the mike, though, so we can understand.

                    STATEMENT OF JUAN CARLOS FORMELL

    Mr. Formell (interpreted from Spanish). My name is Juan 
Carlos Formell. I am a singer-songwriter from Cuba living in 
New York since 1993. Recently, I was honored with a Grammy 
nomination for my first record, but it is an even greater honor 
to be here today and address this committee. I speak as a 
refugee and as a product of the Castro regime. I was born in it 
and it was all I knew until I defected 6 years ago.
    The testimony I am about to give comes from the core of the 
Cuban experience, something so far from what it is like in the 
rest of the world that perhaps the best way to understand it 
would be to consider me as a witness from inner space.
    As a Cuban, it has been painful and horrifying to watch the 
unfolding events in the life of Elian Gonzalez, painful because 
his story is the quintessential representation of the tragedy 
that is Cuba. By that I mean that all of us, those still in 
Cuba and those who live in freedom outside, have a visceral 
understanding of the breadth and depth of this child's 
situation.
    What I would like you to know about Cuba is that the very 
air we breathe is polluted with the smell of fear. It is a fear 
so strong that it makes the soul cringe. All of us are mentally 
and emotionally deformed by this cringing and it takes years of 
being out of Cuba to establish a sense of personal integrity 
and moral balance.
    What has been horrifying about watching this story is to 
see the blatant manipulation of the truth and grotesque 
deception of the American public by their own news media. The 
reporting of this story has been so uninformed and biased that 
it cannot even be called a lie. I would have to call it a 
continuation of a concerted campaign of disinformation, the 
only achievement of the Castro regime in its 41 years in power.
    The first victory in the Castro regime in this case has 
been to make the central issue one of paternal rights. Of 
course, if these events occurred in relation to almost any 
other country in the world, it would be appropriate. But in 
Cuba, it is not. Parents in Cuba have no rights because these 
rights do not exist.
    I am the son of the most famous celebrity in Cuba, a 
bandleader who has maintained his popularity in Cuba for over 
30 years. The Rolling Stones might be a good comparison. Not 
only is he the most famous person in Cuba, he is also known 
throughout the world as the most important figure of 
contemporary Cuba.
    Yet, when I found I could not offer mindless obedience to 
the system--I regret to say that I was not even close to being 
outspoken or a dissident; I simply wanted to practice yoga and 
play Cuban music in my own way--I was punished. And my father, 
despite his popularity, was unable to help me. The government 
threatened not only me, but let me know that my meditation and 
pursuit of individualism could affect him.
    State security developed a file on me that made it 
impossible for me to get an exit visa from my own country, 
which meant that my life as a musician was impeded because 
without permission to travel, you can not enter any musical 
band whose revenues depend on touring. And without government 
authorization, you cannot start your own band. My future was 
taken away from me, but worse things have happened.
    The parents of classmates who were practicing Christians 
were unable to intervene when their children were barred from 
scholastic advancement as a result of their beliefs. Nor could 
they intervene when their children were mocked and humiliated 
by their teachers in school.
    The second victory of Castro's campaign has been to portray 
the conflict over Elian as one having to do with family values 
versus crass materialism. Americans seem to think that everyone 
in Cuba is poor but honest, whereas this country is riddled 
with an over-abundance of material goods. I must tell you that 
when I left Cuba, I left behind not only all the comfort I had 
ever known, but also the possibility of a life of great 
material ease.
    My younger brother, who was in my father's band, drives a 
Mercedes and lives in an exclusive residential district of 
Havana. I have been offered since being here the possibility to 
return and live that life, but I choose to stay here, where I 
still do not speak the language and where I first had to sing 
in the subway and where I am still struggling to survive as an 
artist and as a person. I am still adjusting to freedom, which 
I will cherish even if I am poor all of my life.
    The most terrible thing to have happened in Cuba is the 
elimination of hope for its people. Let me tell you what are 
the choices of Cuba's children. The first choice is unthinking 
obedience. This means substituting the regime's agenda for 
one's own personal conscience. Aside from that there, there are 
three other paths: to be an oppressor, which is the only way to 
rise in the system; to be a criminal, which is the only way to 
survive in the system; or to be a victim, which is the only way 
to have a conscience in the system.
    The issue here is not whether we should give Elian Gonzalez 
more opportunities of career choices here or whether in Cuba he 
will be a poor farmer or an esteemed surgeon. It has nothing to 
do with that. It is whether he will be able to have the same 
right of personal autonomy that you sitting here take for 
granted or whether he will have to adapt his life to a 
dictatorship.
    Thank you very much.
    The Chairman. Thank you so much.
    [The prepared statement of Mr. Formell follows:]

               Prepared Statement of Juan Carlos Formell

    My name is Juan-Carlos Formell. I am a singer/songwriter from Cuba 
living in New York since 1993. Recently I was honored with a Grammy 
nomination for my first record, but it is an even greater honor to be 
here today and address this committee. I speak as a refugee and a 
product of the Castro regime; I was born in it and it was all I knew 
until I defected six years ago. The testimony I am about to give comes 
from the core of the Cuban experience, something so far from what life 
is like in the rest of the world that perhaps the best way to 
understand it would be to consider me as a witness from outer space.
    As a Cuban, it has been painful and horrifying to watch the 
unfolding events in the life of Elian Gonzalez. Painful, because his 
story is the quintessential representation of the tragedy that is Cuba. 
By that I mean that all of us--those still in Cuba and those who live 
in freedom outside--have a visceral understanding of the breadth and 
depth of this child's situation. What I would like you to know about 
Cuba is that the very air we breathe is polluted with the smell of 
fear. It is a fear so strong that it makes the soul cringe. All of us 
are mentally and emotionally deformed by this cringing, and it takes 
years of being out of Cuba to establish a sense of personal integrity 
and moral balance.
    What has been horrifying about watching this story is to see the 
blatant manipulation of the truth and grotesque deception of the 
American public by their own news media. The reporting of this story 
has been so biased that it can even be called a lie. I would have to 
call it a continuation of a concerted campaign of disinformation; the 
only achievement of the Castro regime in its forty-one years in power.
    The first victory of the Castro regime in this case has been to 
make the central issue one of paternal rights. Of course, if these 
events occurred in relation to almost any other country in the world, 
that would be appropriate, but in Cuba it is not. Parents in Cuba have 
no rights because rights such as this do not exist. I am the son of the 
most famous celebrity in Cuba, a bandleader who has maintained his 
popularity in Cuba for over thirty years--The Rolling Stones, might be 
a good comparison. Not only is he the most famous person in Cuba, he is 
also known throughout the world as the most important figure in 
contemporary Cuba. Yet when I found that I could not offer mindless 
obedience to the system--I regret to say that I was not even close to 
being outspoken or a dissident, I simply wanted to practice yoga and 
play Cuban music in my own way--I was punished and my father, despite 
his popularity, was unable to help me. The government threatened not 
only me, but let me know that my meditation and pursuit of 
individualism could affect him. State Security developed a file on me 
that made it impossible for me to get an exit visa from my own country, 
which meant that my life as a musician was impeded because without 
permission to travel you cannot enter any musical band, whose revenues 
depend on touring. And without government authorization you cannot 
start your own band. My future was taken away from me but worse things 
have happened.
    The parents of my classmates who were practicing Christians were 
unable to intervene when their children were barred from scholastic 
advancement as a result of their beliefs. Nor could they intervene when 
their children were mocked and humiliated by their teachers in school.
    The second victory of Castro's campaign has been to portray the 
conflict over Elian as one having to do with family values versus crass 
materialism. Americans seem to think that everyone in Cuba is ``poor 
but honest'' whereas this country is riddled with an overabundance of 
material goods. I must tell you that when I left Cuba, I left behind 
not only the comfort of all I had ever know, but also the possibility 
of a life of great material ease. My younger brother, who is in my 
father's band, drives a Mercedes and lives in an exclusive residential 
district of Havana. I have been offered since being here, the 
possibility to return and live that life. But I chose to stay here, 
where I still do not speak the language, where I first had to sing in 
the subway, and where I am still struggling to survive as an artist and 
as a person. I am still adjusting to freedom, which I will cherish even 
if I am poor all of my life.
    The most terrible thing to have happened in Cuba is the elimination 
of hope for its people. Let me tell you what the choices are for Cuba's 
children. The first choice is unthinking obedience. This means 
substituting the regime's agenda for one's own personal conscience. 
Apart from that there are these other paths: to be an oppressor, which 
is the only way to rise in the system; to be a criminal, which is the 
only way to survive in the system, or to be a victim, which is the only 
way to have a conscience in the system. The issue here is not whether 
we should give Elian Gonzalez ``more opportunities'' of career choices 
to have, or whether in Cuba he will be a poor farmer or an esteemed 
brain surgeon. It has nothing to do with that. It is whether he will be 
able to have the same right of personal autonomy that you take for 
granted here, or whether he will have to adapt his life to a 
dictatorship.
    Finally, there is the most important aspect of this case--one that 
has been overlooked completely. It explains why the determination of 
Elian's future is the most important event in contemporary Cuban 
history--because it will affect Cuban history in the future. The soul 
of the Cuban people is represented and personified by its patron 
saints--Our Lady of Charity and her sister, Our Lady of Regla. Both are 
manifestations of the Virgin Mary, with the former ruling over fresh 
water and the latter ruling the sea. More folk legend than religious 
doctrine, their influence has survived the destruction of established 
religion in Cuba. All those saved at sea are viewed by the Cuban people 
as specially blessed--and are referred to as ``Yemaya Diordde''--a 
title that comes from our African heritage. This image, of the Holy 
Mother, suspended over the sea with a child in her arms is the central 
icon of the Cuban identity. There is no one in Cuba who does not share 
a deep reverence for this.
    Fidel Castro's hysterical insistence on the return of this child is 
based on his knowledge of this icon, and his cruelly subtle ability of 
how to manipulate the Cuban people. It is a tremendous irony that 
Castro is admired by many as a figure of what is thought of as my 
progress, when in reality he runs his country with the use of 
witchcraft and superstition. If you, as rational people, find this idea 
hard to accept, I refer you to the Book of Matthew, chapter 2, verses 1 
through 8, when Herod tells the three kings to bring the child to him 
after they have found him.
    As rational people, members of this committee might find this 
absurd, but it is not absurd to the Cuban people. Castro himself has 
publicly and before cameras referred to Elian as ``Baby Jesus.'' In his 
mind, and in his appearance before the Cuban people, the future of his 
regime rests on regaining this child. For all those here who say ``A 
child should not be a symbol, let him lead a normal life,'' what kind 
of normal life awaits him as the heir apparent of Fidel Castro?

    The Chairman. Mr. Martinez, we will take your testimony at 
this time.

                  STATEMENT OF MEL R. MARTINEZ

    Mr. Martinez. Thank you, Mr. Chairman, members of the 
committee.
    The Chairman. Go ahead, Senator Mack.
    Senator Mack. Well, I just wanted to say a personal comment 
here with respect to Mel Martinez, whom I met 12 years ago as I 
began my effort to become a member of the U.S. Senate, and how 
gratifying it is to see you in the position that you have won 
in elective office in Orlando and the great work that you are 
doing in that community. So I welcome you here today.
    Mr. Martinez. Senator, thank you very much. It is really a 
high honor to be here and to be in this company.
    Mr. Chairman and members of the committee, I come to you 
here today as the fulfillment of the promise of America, the 
promise of freedom and opportunity for all people. It is 
through this promise that I have received an education, become 
an attorney, married a wonderful wife, raised a beautiful 
family, been successful in business, and have been given the 
privilege by the people of Orange County, FL, to be the elected 
Chief Executive of their local government.
    But 38 years ago, I was just like Elian Gonzalez. Thirty-
eight years ago, my parents made the gut-wrenching decision to 
separate themselves from me, their oldest son, at the age of 
15. Their decision was made in the desperate circumstances that 
can perhaps only be fully understood by the perspective of a 
person who has lived under a brutal tyranny.
    My parents felt that the situation in Cuba had reached the 
point where they would rather be apart from their child, whom 
they had brought into this world, loved and nurtured, than risk 
the possible fate that other young people had already suffered. 
Political prison in Cuba then or now did not begin with the age 
of majority. The suffocating lack of freedom that has been the 
Cuban people's daily companion for 40 years was already well on 
its way.
    As a young boy, I saw my Catholic school closed, the 
priests and brothers who ran it expelled from the country, 
people attacked by government-organized thugs upon leaving 
church on Sunday morning. The education system was turning into 
a tool of communist indoctrination, and expression of dissent 
generally was persecuted. My expressions of dissatisfaction 
with this situation at this early age had already caused my 
father to be told by government officials as friendly advice 
that my big mouth was going to land me in trouble. This type of 
advice was an intimidating warning.
    After the failed Bay of Pigs invasion, repression in Cuba 
stiffened even more. Practicing one's religion was considered 
an act of defiance against the state. Families feared their 
children would be taken from them and sent to state-run camps, 
where they would be indoctrinated. Rumors that children would 
be wards of the state seemed possible and real.
    Against this backdrop, my parents went to watch a 
basketball game in which I, then 14 years old, would be 
playing. This was the moment when they decided to do the 
unthinkable and join the hundreds of other parents that they 
had heard had been secretly sending their children to the 
United States. The precipitating event at the game was the 
chants and taunts against me from an organized throng simply 
because I was wearing a scapular, a symbol of my faith that was 
now viewed as an unacceptable sign of anti-government 
sentiment. The words ``kill him, he is Catholic'' had a 
chilling ring for my desperate and frightened parents.
    That night, they called me into their bedroom. I sat on 
their bed as they explained to me that we would separate as a 
family and that I would be leaving without them, that this 
difficult separation would be what was best for me. I 
understood their concern, and despite the fact that I deeply 
loved them and I depended upon them, I was anxious for the 
opportunity to leave.
    My family secretly made arrangements for me to leave the 
country, and after 6 to 8 months of red tape and my 15th 
birthday I was able to leave Cuba. As I left all of my family 
and everything I knew behind, excitement turned tofear and 
loneliness. I was fortunate that I did not risk my life on a flimsy 
raft, but flew to Miami on February 6, 1962.
    I was met at the Miami airport by the organization put 
together by Monsignor Bryan Walsh of the Catholic Diocese of 
Miami. The program was authorized by then President John F. 
Kennedy. This exodus of unaccompanied Cuban children which took 
place in 1961 and 1962 and saved 14,084 children from the 
clutches of Castro's gulag came to be known as Operation Pedro 
Pan. It has been chronicled in a book by Yvonne Conde titled 
Operation Pedro Pan.
    Unlike Elian Gonzalez, I did not have a loving family 
waiting for me and enthusiastically caring for me when I 
arrived in Miami. My life in the United States began in Camp 
Matecumbe, in Miami, later another camp in Jacksonville, FL, 
and ultimately the home of two different American foster 
families. Through these wonderful people in Orlando, FL, I came 
to know the fullness of the charity and kindness of the 
American people.
    The October missile crisis of 1962 came and, as a result, 
all travel between Cuba and the United States was suspended. 
What was supposed to be and hoped to be a short separation from 
my parents now seemed permanent. Admitting to myself the 
reality that I might never see my parents again was one of the 
hardest things that I have ever had to do.
    My life alone here continued. I graduated from high school 
and began to work and attend college. Finally, almost 4 years 
after I had fled Cuba, on December 1, 1965, under President 
Lyndon Johnson's leadership, a series of freedom flights began 
between Cuba and the United States. The primary goal of the 
U.S. Government was family reunification of children who were 
here alone without their parents; not deportation, Senators, 
but reunification here, in freedom. So after 4 long years and 
some months, in March 1966 my younger brother and I were 
reunited here in freedom with our parents.
    During those years of awful separation, never did my 
parents in Cuba nor I here ever consider that I should return 
to Cuba. Returning to Cuba was simply unthinkable. Also, it 
should be relevant to note for your current considerations that 
on more than one occasion my father's employer, the Cuban 
government, offered to reunite us by returning me to Cuba. To 
their offer he would say that I had been brainwashed by the 
priests of the Catholic school that I had attended in Cuba, and 
that I had become a rebellious teenager and he could not 
persuade me to return.
    What my father did not say is that he himself was hoping, 
praying and planning to leave the country. This was a plan he 
could not share. In effect, he was living a lie. Those lies 
that the people of Cuba live and which are so familiar to the 
people of the now liberated Eastern European countries are 
still being lived in Cuba today. It is perhaps the lie, Senator 
Leahy, that those grandmothers could not share with you when 
they visited with you here in this capital.
    It is for this reason that Cuban Americans in this country 
wonder about the true intentions of Elian's father. It is not 
about keeping a father and child from living together, but 
rather ensuring through due process that the father's true 
wishes be known and the Cuban government's manipulation be 
exposed. We who have lived that repression and manipulation 
know that they are the trademark of Cuba's dictatorial system.
    Some argue that we should not presume that this young boy 
is better off here, that he could be equally well-off in Cuba. 
This argument suggests a moral equivalency between the system 
of freedom and opportunity framed by Washington, Hamilton and 
others, and the system of tyranny and oppression imposed by 
Fidel Castro. The truth is that there is no moral equivalence. 
The State Department's just released human rights record in 
Cuba attests once again to that fact.
    This great and blessed land has given me the opportunity to 
fulfill the promise of America. It is my hope and prayer that 
Elian Gonzalez will also be permitted to live in freedom and 
opportunity. I am a firm believer in the promise of America, 
the promise that regardless of where you come from, what 
language you speak or the color of your skin, if you share the 
American dream of a brighter tomorrow, if you pursue with 
respect for the law and for others, and with an abiding faith 
in God, that all things are possible.
    That is the promise that every child should enjoy. In fact, 
our Founding Fathers called it a God-given right. They said 
that all people are ``* * * endowed by our creator with 
inalienable rights, (and) among these are life, liberty and the 
pursuit of happiness * * *''
    Thirty-eight years ago, this land of refuge to all 
oppressed people of the world opened its wonderful arms to me. 
And thanks to the policy of President John Kennedy, I had the 
opportunity to live in freedom. And I am here today to ask that 
President Clinton and this Senate give to Elian Gonzalez today 
the same opportunity that President Kennedy gave to me 38 years 
ago.
    Thank you.
    The Chairman. Thank you, Mr. Martinez. We are grateful to 
have you here.
    [The prepared statement of Mr. Martinez follows:]

                 Prepared Statement of Mel R. Martinez

    I come before you today as the fulfillment of the promise of 
America--the promise of freedom and opportunity for all people. It is 
through this promise that I have received an education, become an 
attorney, married a wonderful wife, raised a beautiful family, been 
successful in business and have been given the privilege by the people 
of Orange County, Florida, to be the elected chief executive of their 
local government. But 38 years ago, I was just like Elian Gonzalez.
    Thirty-eight years ago, my parents made the gut-wrenching decision 
to separate themselves from me, their oldest son, at the age of 15. 
Their decision was made under desperate circumstances and can perhaps 
only be fully understood from the perspective of a person who has lived 
under brutal tyranny. My parents felt that the situation in Cuba had 
reached the point that they would rather be apart from the child whom 
they brought into this world, loved and nurtured than risk the possible 
fate that other young people had already suffered. Political prison in 
Cuba then or now did not begin with the age of majority. The 
suffocating lack of freedom that has been the Cuban people's daily 
companion for forty years now was already well on its way.
    As a young boy, I saw my Catholic school closed, the priests and 
brothers who ran it expelled from the country, people attacked by 
government-organized thugs upon leaving church on a Sunday morning. The 
education system was turned into a tool of communist indoctrination and 
the expression of dissent generally persecuted. My expressions of 
dissatisfaction with the situation had already caused my father to be 
told by government officials as friendly advice that ``my big mouth was 
going to get me in trouble''. This type of advice was an intimidating 
warning.
    After the failed Bay of Pigs invasion, repression in Cuba stiffened 
even more. Practicing one's religion was considered an act of defiance 
against the state. Families feared their children would be taken from 
them and sent to state-run camps where they would be indoctrinated. 
Rumors that children would be wards of the state seemed possible and 
real. Against this backdrop, my parents went to watch a basketball game 
in which I, then fourteen-years-old, would be playing. This was the 
moment when they decided to do the unthinkable and join the hundreds of 
other parents that they heard had been secretly sending their children 
to the United States. The precipitating event at the game was the 
chants and taunts against me from an organized throng simply because I 
was wearing a scapular, a symbol of my faith that was now viewed as an 
unacceptable sign of anti-government sentiment. The words ``kill him, 
he is Catholic'' had a chilling ring for my desperate and frightened 
parents.
    That night, they called me into their bedroom. I sat on their bed 
as they explained to me that we would separate as a family and I would 
be leaving without them; that this difficult separation would be what 
was best for me. I understood their concern and despite the fact that I 
deeply loved my parents and depended upon them, I was anxious for the 
opportunity to leave.
    My family secretly made arrangements for me to leave the country; 
and after six to eight months of red tape and my fifteenth birthday, I 
was able to leave Cuba. As I left all of my family and everything I 
knew behind, excitement turned to fear and loneliness. I was fortunate 
that I did not risk my life on a flimsy raft, but flew to Miami on 
February 6, 1962.
    I was met at the Miami airport by the organization put together by 
Monsignor Bryan Walsh of the Catholic Diocese of Miami. This program 
was authorized by then President John F. Kennedy. (New York Times, 
February 4, 1961.)
    This exodus of unaccompanied Cuban children, which took place in 
1961 and 1962 and saved 14,084 children from the clutches of Castro's 
gulag, came to be known as Operation Pedro Pan. It has been chronicled 
in a book by Yvonne M. Conde titled, Operation Pedro Pan.
    Unlike Elian Gonzalez, I did not have a loving family waiting for 
me and enthusiastically caring for me when I arrived in Miami. My life 
in the United States began in Camp Matecumbe in Miami, later another 
camp in Jacksonville, Florida, and ultimately the home of two American 
foster families. Through these wonderful people in Orlando, Florida, I 
came to know the fullness of the charity and kindness of the American 
people.
    The October missile crisis of 1962 came and, as a result, all 
travel between Cuba and the United States was suspended. What was 
supposed to be a short separation from my parents now seemed permanent. 
Admitting to myself the reality that I may never see my parents again 
was one of the hardest things I have ever had to do.
    My life alone here continued. I graduated from high school and 
began to work and attend college.
    Finally, almost four years after I had fled Cuba, on December 1, 
1965, under President Lyndon Johnson, a series of ``Freedom Flights'' 
began between Cuba and the United States. The primary goal of the 
United States government was family reunification of children who were 
here alone without their parents. So, after four long years and some 
months, in March of 1966, my younger brother and I were reunited here 
in freedom with our parents.
    During those years of awful separation, never did my parents in 
Cuba, nor I here, ever consider that I should return to Cuba. Returning 
to Cuba was unthinkable.
    Also, it should be relevant to note for your current considerations 
that on more than one occasion, my father's employer, the Cuban 
government, offered to reunite us by returning me to Cuba. To their 
offer, he would say that I had been brainwashed by the priests at the 
Catholic school that I had attended in Cuba and that I had become a 
rebellious teenager and he could not persuade me to return. What my 
father did not say is that he himself was hoping, praying and planning 
to leave the country also. This was a plan he could not share. In 
effect, he was living a lie. Those lies that the people of Cuba live 
and which are so familiar to the people of the now liberated eastern 
European countries is still being lived in Cuba today.
    It is for this reason that Cuban-Americans in this country wonder 
about the true intentions of Elian's father. It is not about keeping a 
father and child from living together, but rather ensuring through due 
process that the father's true wishes be known and the Cuban 
government's manipulation be exposed. We who have lived it know of the 
repression and manipulations that are the trademark of the Cuban 
dictatorial system.
    Some argue that we should not presume that this young boy is better 
off here; that he could be equally well in Cuba. This argument suggests 
a moral equivalency between the system of freedom and opportunity 
framed by Washington, Jefferson, Hamilton and others, and the system of 
tyranny and oppression imposed by Fidel Castro. The truth is that there 
is no moral equivalence. The State Department's just released human 
rights record in Cuba attests once again to that fact.
    This great and blessed land has given me the opportunity to fulfill 
the promise of America. It is my hope and prayer that Elian Gonzalez 
will also be permitted to live a life of freedom and opportunity. I am 
a firm believer in the promise of America--the promise that regardless 
of where you are from, what language you speak or the color of your 
skin, if you share the American Dream of a brighter tomorrow, if you 
pursue it with respect for the law and for others, and with an abiding 
faith in God--all things are possible. That is the promise that every 
child should enjoy. In fact, our founding fathers called it a God-given 
right. They said that all people are ``* * * endowed by our creator 
with inalienable rights, (and) among these are life, liberty and the 
pursuit of happiness * * *''
    Thirty-eight years ago, this land of refuge to all oppressed people 
of the world opened its wonderful arms to me; and thanks to the policy 
of President John f. Kennedy, I had the opportunity to live in freedom. 
Today, I am here to ask that President Clinton give to Elian Gonzalez 
today, the same opportunity that President Kennedy gave to me thirty-
eight years ago.

    The Chairman. Ms. Gonzalez, we will conclude with you on 
this first panel.

               STATEMENT OF MARISLEYSIS GONZALEZ

    Ms. Gonzalez. First of all, good morning to everybody. My 
name is Marisleysis Gonzalez and I am Elian's cousin. I am here 
on behalf of the Gonzalez family to express the facts of this 
situation that we are going through as a family.
    It is an honor for me to be here today sitting and being 
able to speak to you all about the situation that we are going 
through, and it is very painful for us. I thank you all for 
giving us and giving me the undivided attention to express 
myself and give some facts about what really did happen with 
this case.
    On November 22, around 9 p.m., Juan Miguel Gonzalez and 
Juan Gonzalez, his father, called my house and called Delfin's 
house, Delfin Gonzalez, who is an uncle of mine, and couldn't 
reach us. After that, he called my aunt's house, Georgina, to 
let them know that Elian and his mother had left Cuba on a 
boat, to please be aware and alert to their arrival.
    My aunt waited for us to be home and called my father and 
let him know the situation and let him know that Juan Gonzalez 
had spoken to her and called. Quickly, my father called back to 
Cuba and spoke to Juan Miguel Gonzalez and Juan Gonzalez in 
regard to this matter. They stated to my father that Elizabeth 
had left on a boat with Elian Gonzalez, her son, to please be 
alert and to take care of them when they got here and give them 
any support that they needed, as they all know that we have 
given that support to other cousins of mine that had just 
arrived 7 months ago on a raft with their three sons. My father 
said to them, you know that I will do the same as I have done 
for my other nephews and you know that they are in good hands. 
And he said, yes, that is the reason that I have called, please 
take care of them.
    Then the tragedy began on November 25, when Elian arrived. 
And we were very worried because almost 4 days and we hadn't 
heard anything. We as a family started calling Chrome and 
trying to find out if they had known any evidence or if they 
have arrived or if they were trying to be processed or so. That 
morning, my brother's wife heard on TV and on the radio that 
there was a boat that had turned over and it was coming from 
Cardenas. Because of the fact that there were so many days that 
they were at sea, we thought it was them.
    I quickly called Chrome and tried to call all the Coast 
Guard to find out if these were my family. And in one of these 
calls, the Coast Guard told me that there was not only two 
survivors that we thought, there was a 5-year-old involved and 
he was taken to a Fort Lauderdale hospital. I quickly tried 
reaching Fort Lauderdale Hospital because they didn't give me a 
specific hospital, and so I found where Elian was at.
    We quickly ran down there, and that night the doctor didn't 
have any idea or clues of what Elian was allergic to and 
neither did we because we as a family lived here. We told him 
that his official father was in Cuba and that he would be the 
only one to know if he was allergic to any medication. So the 
doctor that night said, well, we need to get in touch with his 
father in case we need to provide any medicine for this child.
    There was a phone call made on November 25, that night, to 
Juan Miguel's house, and this was not the first phone call, as 
he stated to INS, which wasn't true. The first phone call was 
November 22, when he called my aunt's house stating that they 
had left on a boat. My father spoke to him and told him that 
the boy was OK, that he was very dehydrated, but he was going 
to be under care for a day or so. And he told my father, please 
take care of him until I am able to come over there. And my 
father said to him, you know I will do that, but the doctor has 
to ask you some questions in regard to his medical history.
    There was a male nurse translating between the doctor and 
Juan Miguel. Afterwards, that night, I stayed with Elian and my 
aunt, Georgina, at the hospital taking care of this little boy. 
He expressed everything to me that same night of what he had 
experienced in that ocean. That night, at 9 p.m., we arrived at 
the house and we called again Juan Miguel's house for him to be 
able to speak to his son and know that he was OK.
    He spoke to my father and it was totally a different tone 
of voice, very aggressive, telling him that this boy had to go 
back. My father asked him why; we will provide visas for you 
and all of your family to come to this country as well. And he 
stated, that is the way it has to be. These were his specific 
words.
    The reason I recall this and I could sit here and talk 
about it as a fact was because he got very aggressive, and my 
father said, speak to my daughter, and these were the words he 
told me: in 48 hours, I will go to Havana, Cuba, and I will 
sign some papers and someone will go pick up Elian and bring 
him back to me. And I told him, if you don't know, this little 
boy is very dehydrated and he has been through a lot. Who is 
coming to pick him up? Are you going to come and pick him up? 
He says, no, I cannot go over there. And I said why? He goes, 
because I haven't lost anything at that country.
    And said, well, if you haven't lost anything at this 
country, what is your son to you? It hurt me a lot to express 
myself that way, but it was very painful after me seeing this 
little boy that couldn't even sit in a bed orwasn't able to 
walk straight when he got out of the hospital, and his father didn't 
even have the slightest idea what his son went through. And besides 
that, I am sure he didn't have the freedom to get in an airplane and 
give his child that support of everything that he had gone through that 
night.
    I told him that to please, if he wanted his son, to pick 
him up, for him to come here and pick him up, not to let 
anybody else pick him up who Elian didn't even know, and that I 
didn't think he was in the best medical sense to walk or 
anything like that or to get an airplane, to please think about 
what he was going to do. And he said, if you don't understand, 
that is the way it has to be.
    To this point, I didn't know much about what would really 
happen to him or about the pressure that he would have, as he 
is having today. After me experiencing and being with this 
little boy almost 3 months now, I see that my cousin must be 
going through the most horrible thing of not being able to come 
here to this country and give support to his child when he most 
needed it. And I am sure they are under a lot of pressure.
    To my knowledge, this kid wasn't kidnapped, as they are 
stating in Cuba. This trip was planned for 6 months. I know 
this fact because of the other two survivors on that boat who 
gave me all the information and explained to me that Elizabeth 
was able to go back and if she wanted to leave the little boy 
behind, she could have done it because the boat broke down and 
they had to go back. And she said, he will go with me, 
regardless.
    To my understanding, my cousin has been wanting to come to 
this country for a very long time. Prior to this, a year-and-a-
half ago, my father went to Cuba with my uncle, Delfin, and my 
brother, William. And he stated to my brother that he was dying 
to come to this country. Seven months ago, I received cousins 
of mine who came on a raft as well, and Mary Isabel, a cousin 
of mine who came on that boat--and Juan Miguel's brother was 
going to come with her on that boat; he just couldn't find the 
money he needed to buy the materials that were needed for that 
boat. And that was the reason that he didn't get on that boat.
    To all of this that I have been seeing and that I have 
experienced, I have been hearing from Elizabeth's family 
members, who she was questioned by the Cuban government after 
her husband, Munero, escaped Cuba and came here for the first 
time and was returned back to Cuba and was imprisoned for 3 
months.
    When he was here, to my understanding from family members 
of hers, she was interrogated from the Cuban government to see 
if she knew of his departure, if she knew that he had left 
Cuba, if she was aware of all of this. And she stated to this 
family member that they told her that if they would find out 
that she knew or she had something to do with that, she would 
be taken to prison and Elian would be taken away from her 
custody.
    I am not a mother, but to everything that I have seen and 
that I could possibly imagine that she went through, I could 
just feel the pressure that she must have gone through on 
having to decide to take her son through such a risky trip, 
knowing that they would either make it or they wouldn't, 
knowing everything and everyone that he was leaving behind. And 
that wound will never leave my heart because I have really 
asked this little boy what he wants. I have asked him from the 
bottom of my heart if he wants to go with his father to Cuba, 
that I myself would take him.
    And all he said to me were these words: no, my mother 
brought me here and I want to stay here. And after he told me 
everything that they went through and how he saw people 
drowning and all this experience, he asked me to promise him 
that I would never leave his side and to always protect him. 
And I promised him this, and it is very painful for me because 
I know that my cousin is under a lot of pressure because 
whoever is a father or isn't a father, they should know what 
the feeling would be of knowing that your son went through the 
most tragic moment of his life seeing the death of his mother 
and the tragedy of his family, and that he doesn't have the 
right and they don't allow him to come to this country to see 
his son or giving him that support when he most needed it.
    I honestly feel that if he would have not been pressured or 
he wouldn't have been under all this political issue in Cuba 
having Fidel next to him, and that if in Cuba there was liberty 
and freedom, this mother wouldn't have had to risk her life on 
that boat to come to this country. She could have come in an 
airplane. And if there would be such a freedom to my cousin, I 
know for a fact that he is a good father and that he loves his 
son, and that he would have come here to give that support and 
that love that he needed that day and that he still needs to 
this point.
    Under no circumstance we as a family are going to separate 
this boy from his father. My family has always been very close, 
extremely close, and all I ask is--all I ask God is that he 
made the miracle to bring this little boy safe and sound to us, 
especially to me; that I take care of him and I hear everything 
he has to say. And I have to live with him and see the pressure 
that his father gives him. When he speaks to him over the phone 
and tells him, you have to come back, you have to come here, 
and makes him sing songs of the revolution, this little boy 
sometimes doesn't even want to speak to his father.
    And we as a family are going through a lot because wecannot 
tell him, your son doesn't want to speak to you, because it is very 
painful to us for him to have hear that because we know he is under the 
pressure and he is doing it because of the fact that he is pressured. 
And at the same time we cannot do it because the Cuban government would 
turn around and say, look, the family doesn't want to allow the boy to 
talk to his father, when all this family has done has been to be there 
when that little boy needed someone because his father wasn't able to 
be there with him.
    All my family has done is given him the support and given 
him a shelter and try to give him love, hoping that someday his 
father could come here. And to this point, after 3 months, I 
pray to God every night I go to sleep, you have given this 
mission to me and you allowed him to see the death of his own 
mother, you should know why. But I also ask him to please allow 
my cousin to someday come to this country and reunite with his 
son, where his mom wanted him and where his mom brought him and 
where she thought he would get what she always thought this 
country was all about, freedom and liberty.
    To her, that wasn't an adventure. I hear the stories from 
my cousin how--not the poorness, but how they can't talk, how 
they have to tell their sons and daughters to talk low in the 
house, how they risk their own daughter and son's life when 
they come in that boat. And they know that my cousin wanted to 
come here. He stated to my brother he was dying to come here. 
He told my cousin, who came 7 months ago, that as soon as he 
loses his job in Baradero, he would even come here in a toilet 
bowl, but he would come to this country.
    And if that is the fact and that is something that he said, 
I am sure that he as a father, wanting the best for his child, 
as he would have wanted the best for him, he would have risked 
Elian's life as well and brought him here on that boat. I feel 
that he did know that they were coming, but as Elizabeth wasn't 
able to express herself and say to the government that she knew 
Munero was coming here as well, that is the same way my cousin 
feels. He cannot tell the Cuban government that he knew his son 
was coming to this country because he has another infant son 
and a wife that he has to look forward of.
    He knows that his son is in a country of freedom where he 
is protected, and that is why he can sit there and read papers, 
with the pain of heart, say things that they are telling him to 
say. But he cannot turn around and say otherwise because he 
knows that his wife and his son might be in danger or are in 
danger. And he knows that the other one is very safe and sound 
here because he knows that in this country they would never 
hurt any kid. What they would do is support him. And he knows 
to this point that we as a family have given him the support 
and have been there for him, and he knows that we will do it to 
the end.
    This is my written statement and it is on file. I would 
just rather express myself from the bottom of my heart because 
I am living this every single day. And I feel that everybody 
should open up their heart and not think about the political 
issue, or rather think about how Cuba is so poor. That is not 
the fact. Nobody has ever thought about the wishes of that 
mother when she stated to one of the survivors, the male, you 
are the only male left, please help my son, please allow him to 
touch land, please let my son make it. Nobody has ever asked 
that.
    Nobody has ever asked what Elian wants. Nobody has ever 
asked how fearful he is. His father has not even had the 
opportunity to ask his son what he wants. He has not even had 
the opportunity to ask him about his mother. Neither Raquel, 
the mother of Elizabeth, has asked about her daughter. It is 
very sad to see that the Cuban government has to make her speak 
and refer to her daughter saying ``Elian's mother.'' She cannot 
say ``my daughter.'' She has to state ``Elian's mother.'' That 
was her daughter. She hasn't been given the right to express 
her feelings or anything like that because I am sure that if 
she would, she would be thanking us for what we have done 
because those were the words of Elian's mother.
    And all I ask is that they not only see us as a painful 
family and everything we are going through, but to see what my 
cousin is going through in Cuba. I wish that someday he will 
have the opportunity to come here with his wife and son to 
express himself and really say what he wants for his child.
    The grandmothers came here. Why didn't they allow the 
father to come here? He is the most closest thing to him, the 
father. This boy needed the support of the father. After 2\1/2\ 
months afterwards, they allowed them to come here. This little 
boy already had us; he already had the people that were there 
for him when he really needed it because even though he is 6, 
he knows a lot and he knows the people that were there for him 
when he needed them.
    And it is very sad that I had to stand up in front of the 
two grandmothers and they couldn't even say hello to me. It is 
very painful because I haven't done anything wrong. All I have 
done is taken care of this little boy and give him the support 
that he needed now that his mom wasn't there.
    And I have to see the fear in that little kid's face when 
he met both his grandmothers, thinking that he would be 
returned to Cuba, where he would be brainwashed, because Fidel 
Castro, he thinks that this will be his trophy, when he has 
never cared about any kid. If he would, he would have allowed 
my cousin to come here and give the support for his child when 
he really needed it.
    And with this, I thank you all, and if you were to have any 
questions in regard to this matter, I will be more than willing 
to answer it.
    [The prepared statement of Ms. Gonzalez follows:]

               Prepared Statement of Marisleysis Gonzalez

    It is difficult for me to express to you how deeply honored I am to 
appear before you today. Never in my life had it even entered my mind 
that I would have the privilege of speaking to members of the United 
States Senate. And never in my life did it ever occur to me that my 
doing so would be so important, not just to my life, but to the life of 
another human being, in this case that very special 6-year-old boy 
named Elian Gonzalez.
    Let me tell you about Elian, who entered my life after surviving 
alone for over two days in the ocean, tied to an inner tube, in shark-
infested waters, without food or water. Some believe that he was 
protected by dolphins. I believe that he was protected by a miracle of 
God.
    Elian is, in a nutshell, full of life; he is everything that his 
mother would have wanted him to be. Despite his ordeal, he is a happy, 
sometimes mischievous boy, whose boundless energy tests my ability and 
that of my family to keep up with his level of activity. His enthusiasm 
and good humor are contagious. He is very bright, very much aware of 
his surroundings and circumstances, and--with one exception--very 
comfortable and very happy.
    The exception is this: any time that Elian has heard anything 
suggesting that he will be taken back to Cuba, his reaction has been 
immediate and most noticeable. Despite my family's best efforts to 
shield him from unfavorable rumors, it has proven to be impossible to 
keep this bright, perceptive child from catching a news report on 
television, or from overhearing a comment by a nearby adult about some 
threat to his continued stay in our home and with our family, which he 
considers to be--and which is--his family. I will tell you that Elian 
was upset when he felt that his grandmothers, after refusing our 
invitation to come have dinner at our home, might try to snatch him and 
take him away. I had to persuade him to get dressed to go to Sister 
Jeanne's house to meet his grandmothers, but it was not easy. When 
Elian feels that anything threatens his staying here, with us, his 
whole mood changes. His face turns somber. His level of activity 
dramatically declines. He becomes moody, difficult to deal with, and 
sad. He says very little, even in answer to our attempt to talk with 
him. To put it in one phrase, he becomes a different boy. And this has 
happened repeatedly, whether with the grandmothers' visit, or with the 
talk about his father coming to get him, or with the recent request 
that he be placed in the home of my father's brother. Sometimes Elian 
is so worried about being taken away that he tells me that he does not 
want to go to school. On those occasions, this delightful, outgoing 
little boy becomes withdrawn and grows silent. At times he tells me 
that he is afraid--afraid of being taken away from his home, from my 
family, from me.
    Unfortunately, these episodes happen often, too often, in Elian's 
life. We have a real problem with his father's telephone calls, which 
he usually makes three times a day, and in which he insists that Elian 
speak with him for long periods of time, sometimes up to an hour. On 
the one hand, my family and I have been very careful not only to avoid 
any difficulty between Elian and his father, but actually to encourage 
those communications. Therefore, we have placed no restrictions even 
though long telephone conversations, three times a day, usually between 
6 and 9 P.M. is too much: too much for anyone, and certainly too much 
for a child who has homework to do and who wants to play and who has a 
full life. Worse, during those conversations, which we believe to be 
orchestrated and then taped by the Cuban government, Elian's father 
constantly asks the boy--over and over again--when he is going back to 
Cuba, only to have Elian tell him--over and over again--that he does 
not want to go back to Cuba. Elian complains to me about the frequency, 
length, and even content of those telephone calls, which sometimes 
include attempts to have him sing revolutionary songs with his father. 
Those calls place visible stress on Elian every time they happen. 
Truthfully, we don't know what to do. We don't want anyone to say that 
we are interfering with the father's ability to speak with his son, but 
we are also very much aware, daily, of the adverse impact of those 
calls, and we are very worried about that.
    Above all, what Elian needs is stability, certainty about his life 
and about his future. My family and I have done everything we can to 
give this boy not just a house, but a home. We have given him our 
hearts and all of our love; we have given him the care and attention 
that his mother would have wanted us to give her son and that his 
father asked my father to give to him last November; and I believe 
that, except for the anguish about his future, we have succeeded in 
making Elian's life a happy one. But we need your help. Elian needs 
your help. He cannot go on with fear in his heart every time he picks 
up the telephone, or every time he hears a news broadcast, or every 
time he overhears an adverse comment about his future here.
    I doubt that when INS gave my parents custody of this child last 
November, the INS officials ever dreamt that we would take such good, 
loving care of him. We are doing everything we can for him. We have 
done everything we can. Now we need your help. Please help us. Please 
help Elian. All he needs from you is the certainty that no one is going 
to take him away, in the middle of the school day or in the middle of 
the night, away from us, his loving family, away from where he 
desperately wants to say and where he belongs--here with us.
    Thank you, and God bless you.

    The Chairman. Well, thank you so much. This has been a very 
interesting panel.
    Let me just ask you one question, Marisleysis. Why do you 
believe that Elian's father wants him to stay in the United 
States? You have indicated that. If you could just give us what 
your view is there?
    Ms. Gonzalez. There is a lot of views toward this. The 
first one is that he stated to my brother that he was dying to 
come to this country. The second one is that he said to my 
cousin that as soon as he loses his job, he would come here in 
a toilet bowl. And besides that, what parent doesn't want the 
best for his child?
    When I have spoken to my cousin over the phone, he always 
tried to speak to me very calmly and he tries to not argue with 
me. But at the end, he ends up arguing, but before he argues 
and he speaks to me, I tell him, you don't have to thank me for 
what I am doing; I am doing it because your son needs it. And 
these were his words: I appreciate everything that you are 
doing for my son. Do you understand me? He says, my cousin, do 
you understand what I am trying to tell you? And I said, yes, I 
do.
    To my understanding is that if he tells me that he thanks 
me for everything that I am doing for his son, one part of that 
is that I am here and I will be wherever I need to be to make 
this little boy's dream come true, and his mother's will to 
stay in a country of freedom and liberty. That is the reason 
why I feel that. And besides that fact, he himself stated to my 
father, please take care of him until I am able to go over 
there. ``Able,'' not saying until I want to go over there, 
saying until I am able, until somebody allows him, because in 3 
months nobody has allowed him to come to this country.
    And knowing my family and knowing my cousin, I know that if 
he had the freedom, he would not have left his son that night 
in the hospital and for 3 months now, not giving him the 
support that this little boy needed.
    The Chairman. Thank you. Now, as I understand it, your 
cousin is remarried and has a daughter or a son?
    Ms. Gonzalez. He has a son.
    The Chairman. Any other children?
    Ms. Gonzalez. No.
    The Chairman. So if he came by himself, he would have to 
leave the----
    Ms. Gonzalez. He will still be pressured, and even more 
because over there his wife and his son might be in danger. He 
knows that whatever he might say over there in regard to us and 
in regard to his child there, there would be no problem because 
thanks to God, this is a country of freedom and liberty and you 
have the right to speak freely and the rights for speech. And 
he knows that the laws will support his son and that we will as 
well, and that we are free to speak in behalf of anything that 
comes upon.
    The Chairman. Well, if he could come with his wife and son, 
if he, his wife and son could come here, then you would feel 
better about any resolution of this, regardless of what it is?
    Ms. Gonzalez. Yes, I will because I would love, and I pray 
to God every night to allow me to have the opportunity as I had 
to see the grandmothers, to have the opportunity to see Elian's 
face and to see Elian when he sees his father, for his father 
to have the rights that he has as a father to sit down with his 
son and ask him what is it that he wants, how does he feel, how 
are you doing, how is your school, what did you eat, everything 
that a father asks their son, not having to make him sing songs 
of the revolution or telling him--actually pressure him and 
making him feel sorry that he is not in Cuba because of 
himself.
    The Chairman. Well, let me say this. If Fidel Castro wants 
to resolve this matter, it seems to me that he ought to allow 
the father, his wife and his son to come here so that nobody 
would think that the father was under special pressure because 
he has left his wife and son behind, and then have it resolved 
right here. And if he would do that, it seems to me that might 
be the best way to resolve this matter. So I would call on 
Fidel Castro to do that, unless he is afraid that the father, 
his wife and son would stay here in this country.
    Ms. Gonzalez. I think that is one of the reasons that----
    The Chairman. So that may be the way to resolve this in the 
best way for all concerned. But in any event, that would be my 
suggestion.
    Let me just ask you, Alina, if I could, you among the 
panelists this morning may have the most unique perspective on 
the psychology of your father, Fidel Castro. What is it about 
the Elian Gonzalez case that has so caused your father to take 
it up as a cause when so many other families and children have 
fled Cuba without comment from him, and indeed sometimes were 
urged to flee by him? Is Elian Gonzalez a political trophy 
sought by Fidel Castro, or what is the reason for all this?
    Ms. Fernandez. Well, I think that he has some kind of 
temper tantrum because the summit failed, the Hispanic summit 
failed, and it is a way also to hide the fact that people are 
able to risk their lives and their children's lives just to 
escape from his paradise. A country who doesn't produce or 
study or anything during 2 months is totally madness, and he 
will never allow the father to come with the wife and the child 
because they will all stay here. So I don't know what to 
suggest.
    The Chairman. Are you saying that it is very difficult for 
this father to really, truly express his wishes rather than 
through the code?
    Ms. Fernandez. I am sure they have a team of psychologists 
and people who specialize, and intelligent persons, suggesting 
to him what he has to do. I am sure he is 24 hours under 
screen. But you can't relate to that. You don't know what it is 
to have a camera and to have microphones and to have people, 
you know, just pushing you. One of the symptoms is the mother 
who just lost her daughter is able to come here with the other 
grandmother. It is just amazing. I mean, people have to be 
under a lot of pressure to do that. It is pure fear.
    The Chairman. Let me turn to Senator Leahy.
    Senator Leahy. Thank you. To begin with, I tend to agree 
with the point that Senator Hatch has made. Ideally, I would 
like to see the father and son together in the same venue where 
they could talk to each other. I think that is what you also 
would like to see, Ms. Gonzalez, in that, ideally, so there 
would be no question about it, Ms. Fernandez, and perhaps the 
father's wife and infant.
    Let me ask you this, Ms. Gonzalez. If arrangements were 
made for the father and the son to meet in a place of true 
neutrality, say the Spanish embassy or the Swiss embassy or 
something like that here in the United States or elsewhere, in 
a neutral area, would that be a help and would that be an 
advantage to the little boy?
    Ms. Gonzalez. We as a family don't have anything against 
the little boy to see his father because we didn't have it for 
him to see his grandmothers. The Cuban government was the one 
that didn't allow my grandmothers to visit my house, and they 
won't allow the father to visit my house either.
    But all I ask is if that is done, it is for the best 
interest of the child psychologically. All I am doing this is 
for this kid, not for anybody else. I want for them to make 
Elian comfortable and not be afraid. I am a hundred percent 
sure that he is going to tell me no. If that is the case----
    Senator Leahy. But if we could just back up a bit, and I 
don't want to cut you off. I want you to go back to what you 
were saying, but just for a hypothetical let us assume--and I 
haven't discussed this with the Swiss government or the Spanish 
government or anybody else. They might say no, but let us 
assume somewhere where he could be with the same language being 
spoken and everything else, a sense of a security, but no one 
from the Cuban government would be there, nobody from the 
family or anything else. It would be the father and the son. 
Would that be advantageous?
    Ms. Gonzalez. Would his wife and son be here?
    Senator Leahy. Well, let's take it step by step. Let's take 
first the father and the son. Would that be an advantage? And 
then, second, would it be----
    Ms. Gonzalez. We as a family don't have anything against 
that. All I am saying is to make Elian feel comfortable. The 
reason I am saying this is because he did not want to go to 
Sister Jeanne's house that day. And when we told him the 
grandmothers were coming to visit the house, he said he was not 
going to go outside the room.
    The reason he says this and the reason he didn't want to 
go, because I have asked him, these are your grandmothers, you 
need to go, they love you, they are here to see you, it has 
been a long time that they haven't seen you--he said, I don't 
want to see them because they are going to want to take me back 
to Cuba. And the next day, this little boy didn't want to go to 
school because he was afraid for them to pick him up and take 
him to Cuba.
    I don't have anything against for him to see his father if 
it is either at my house or wherever they ask him to see him.
    Senator Leahy. I wonder----
    Ms. Gonzalez. But last time this was done with the 
grandmothers, INS gave restrictions where he had to go upstairs 
by himself. Because of the fact that I live with this little 
boy and I see his fear and I know what he feels, I told them, 
what if he doesn't want to go up by himself? This is a house 
where he doesn't know anybody. He has been through a lot and, 
you know, he is afraid.
    And they said, well, you cannot go up there with him. And I 
said, well, fine, but what are you going to do if he says he 
doesn't want to go up there? So then they allowed me to take 
the boy upstairs.
    Senator Leahy. Ms. Gonzalez, do you think it creates a 
problem for the boy when, for example, going over to the 
residence where he met with his grandmothers--incidentally, 
when I met with the grandmothers, his maternal grandmother 
always referred to her daughter by the daughter's name. But 
when he goes over there, the fact that there are all these 
demonstrators outside either for or against Castro, either for 
or against him going back, does that frighten him?
    I mean, the grandmothers may come to your house. There are 
demonstrators all over the streets. If he goes to the nun's 
residence, there are demonstrators all there. Is that an 
unfortunate thing as far as this boy is concerned?
    Ms. Gonzalez. Well, it uncomforts me as well and I am 
older. Imagine him being 6 years old. But this is something 
that we just don't have control of.
    Senator Leahy. I understand.
    Ms. Gonzalez. As a country of freedom, they could be 
wherever they want.
    Senator Leahy. I understand that, but I am asking----
    Ms. Gonzalez. But it would be preferred if he would be in a 
place where he didn't have to have all the cameras and 
everybody around him. That was really nice because he didn't 
have to get out of the car where all those people were 
screaming. He just walked in the car and went straight into the 
residence.
    And I feel that if the father comes and he is given the 
opportunity to meet there, I feel that Elian won't be--he won't 
feel uncomfortable because he has already gone to that house 
and he knew that he went to the house and he was able to go 
back to his home. So in a way, I feel that, yes, he will be 
secured if he does go to Sister Jeanne's house again.
    Senator Leahy. The reason I ask that is it is always easier 
to look at something in hindsight and say why wasn't it done 
this way, why wasn't it done that way. It is unfortunate that 
this has become such a terrible political football. And, 
frankly, I am very, very upset both with those who have 
demonstrated in our own country, oftentimes for their own 
political purposes, subpoenaing the little boy and all that, 
just as much as I condemn Fidel Castro for the staged 
demonstrations that he has done in Cuba. It seems in both cases 
that people forget there is a little boy here.
    We have members of Congress, we have others who may have 
perfectly legitimate reasons. They have an absolute right to do 
what they do, as you say the people who demonstrate have a 
perfect right in our country to do it. But I cannot help but 
feel that many of these people have been more interested in 
their own political agenda than they have in the interests of 
the little boy on both sides, in both countries. That is what I 
find unfortunate.
    And I only mention that because I think if I had my way 
about it, I would say let the father, let his new wife, let 
their child come to a neutral place with the little boy, 
without demonstrators on either side hollering and screaming 
outside the gates.
    Ms. Fernandez, I was quite impressed with your testimony 
and I am familiar with your history. You came here when you 
left Cuba. You used a disguise. You had an unauthentic Spanish 
passport as your way of getting out. I understand that is the 
way you had to do it. Here in the United States, we passed a 
law in 1996; it is not one I support, but a law that calls for 
the automatic exclusion of foreign nationals who arrive on our 
shores without valid travel documents.
    Now, if that law had been in place when you arrived, you 
would have been kicked right out. Would you agree that we have 
to have something more flexible? I mean, you couldn't just walk 
in and get a Cuban passport and leave.
    Ms. Fernandez. Well, I don't know if I would agree if it 
had happened to me, you know. I am sure I would have felt hurt. 
Somehow, I always have the feeling that this situation in my 
country exists because you here allowed it, or somehow it is 
convenient for you. I am not accusing your government----
    Senator Leahy. Which situation, Ms. Fernandez?
    Ms. Fernandez. I don't know. I think you are too close and 
you are not helping people there. For instance, Fidel Castro 
has been functioning, doing things, and then you have to 
repress. So sometimes I wonder if it is a game, you see.
    Senator Leahy. But it is a game, it is a game.
    Ms. Fernandez. That is it.
    Senator Leahy. We agree.
    Ms. Fernandez. That is why sometimes to speak is so 
exhausting.
    What I was saying is that you have to be very aware that 
some crisis is mostly at your door because when Fidel will be 
out and Castroism will be finished, you will have thousands of 
families that will want to be reunited. And it is time now to 
prepare that step for both countries. And as she is saying, 
this boy has the right to see his father. I don't know if there 
is any mutual place on Earth toward Cuba and America, you see.
    Senator Leahy. I see.
    Ms. Fernandez. I don't think that you will find that. That 
is another matter.
    Senator Leahy. Ms. Fernandez, be happy that we didn't have 
the law when you came here that we have now because----
    Ms. Fernandez. I am very happy, but let me tell you 
something. My first harbor was Spain, so if you had had that 
law, maybe I should have stayed there.
    Senator Leahy. No. We are glad you are here, but I am 
saying that some of those who voted for that law didn't stop to 
think that people like you would have been kept out. Usually, 
when somebody wants to flee a country, they are not able to 
walk down and say, gee, give me a passport because I want to 
flee the country. Obviously, they are going to take invalid 
or----
    Ms. Fernandez. Do you think I did that? I asked somebody 
to----
    Senator Leahy. No, no. I am saying that is exactly right. I 
mean, you are not going to get out with a valid passport. You 
are going to have to use something else.
    Thank you, Mr. Chairman.
    The Chairman. Just to make it clear, we still have asylum 
laws that take care of these matters, I mean, my gosh.
    I want to turn to Senator Smith, but if I could justask one 
other question before I do, Mr. Martinez, you came here as a child?
    Mr. Martinez. Yes, sir.
    The Chairman. How old were you?
    Mr. Martinez. I was 15.
    The Chairman. You were 15. You did not have a family?
    Mr. Martinez. No, I didn't. I didn't have a loving cousin 
acting like my mother. I mean, I was in a camp and it was an 
old Army barracks-type camp. And it was wonderful that it was 
there for me, but it was not exactly a home.
    The Chairman. You have had a lot of experience, very 
similar experience. In some ways you were older, but still a 
youth. What would be your suggestion as to how to solve this? 
You deal with problems everyday now and you have earned the 
right to deal with them.
    Mr. Martinez. Unquestionably, I think that Senator Leahy is 
heading in the right direction, but I think it would be a 
profound mistake to suggest that the father could come alone. 
The only way that the father would be even close to being 
free----
    The Chairman. I have made it clear that the only way that 
the father would be free to come and free to speak and free to 
act would be if he has his whole family with him.
    Mr. Martinez. Correct.
    The Chairman. We both said that. But even then, he may have 
other relatives there that could be persecuted.
    Mr. Martinez. Correct. I mean, in fact, the companions on 
this trip were fearful of speaking about the circumstances 
under which they left Cuba, the other two survivors, for fear 
of repercussions to their family in Cuba.
    You know, as I stand here and speak to you today, my mother 
back in Orlando is dying because she has family in Cuba and she 
wonders about that. There is such a total repressive system of 
fear that he has been able to sustain for so long that it is 
just sort of endemic.
    So I think a proposed solution, Senator, would be to have 
the father come. How unnatural that the father wouldn't come to 
be with his child. Why wouldn't he, why couldn't he? I mean, 
there are flights between Cuba, Miami, and Havana now, and New 
York, daily.
    The Chairman. You are saying the only way he would come is 
if he has his wife and his son?
    Mr. Martinez. His wife and his son with him, and then they 
could have a reunification. You know, we ought to scale it 
back. You asked me how would I solve it. You scale it back to a 
family issue, not a political dispute between----
    The Chairman. But I am suggesting what if we had a Federal 
judge mediate this?
    Senator Leahy. Mr. Martinez, would you say that still in 
this particular case, for whatever reason, it has been handled 
a lot differently than if, say, this was a child of Chinese 
refugees or those from other countries also with repressive 
governments?
    Mr. Martinez. Well, Senator, I really am much more familiar 
with the Cuban experience. I do know there is repression in 
China and there is repression in many parts of the world, and I 
know that whenever this country has been confronted with the 
opportunity to assist a refugee, as it was in my case--I am 
ever so grateful to President Kennedy and then President 
Johnson that reunited my family--that policy of this country 
has always been on the side of those seeking freedom.
    I don't think it is practical or real that we should have 
some sort of a blanket citizenship for every child in China, 
but I do think that this child----
    Senator Leahy. How about Haitian refugees?
    Mr. Martinez. Well, here is the thing. This child arrived 
on these shores. Were it not for the fact that his mother died 
en route--if Elian's mother had survived, we would not be 
discussing this here today. It would be beyond question that 
this child would remain here with his mother, hoping that dad 
would come along at some point later.
    The reason that there is such a different reaction between 
Cuban Americans and other Americans--I see it in my own city of 
Orlando--people do not understand. As you talk about it, people 
understand much better and then they tend to be more 
understanding of the circumstances that causes one to say, 
well, maybe the child wouldn't be with his father, because for 
40 years the Cuban family has been separated in many different 
ways.
    It might be that my own separation lasted 4\1/2\ years, but 
I could tell you countless other Cuban Americans, some who left 
by way of Spain alone as children that ended up coming here. 
The parents then left by way of Jamaica. I mean, we have been, 
you know, people of the world that have found an opportunity to 
be reunited here.
    So nothing could be more natural to the Cuban experience 
than for the child to remain here and at the next opportunity 
that Juan Miguel had, he would have been here reunited with 
him. This is what happened to other members of her family who 
came by raft a few months ago.
    So the unusual part of this is that somehow or another, for 
whatever political need the dictator had at that given point in 
time, having just suffered the embarrassment of a failed 
Iberian summit where some of his closest international allies 
like the President of Mexico gave him a tongue-lashing about 
the need for change in Cuba--so it was time then to change the 
subject. What better way to changethe subject than to energize 
the country now with a crusade to return this child to Cuba within 48 
hours, it was said at the time, and then later----
    The Chairman. Let me just say it is different because there 
should have been an asylum hearing and there was not. The 
Attorney General jumped into this way before she should have, 
in my opinion, and I think the opinion of almost everybody else 
that knows anything about immigration law.
    Mr. Martinez. Right.
    The Chairman. Let me turn to Senator Smith.
    Senator Smith. Well, thank you very much, Mr.Chairman. Let 
me just also add a footnote to what you just said. Not only did 
she jump into it prematurely, she did not seek to get all of 
the facts. As you have said very emotionally and very 
coherently this morning, Ms. Gonzalez, if the INS had taken the 
time, and others in the Government from the Attorney General's 
office had taken the time to speak to Elian or to speak to you 
and other members of the family in detail about what was Juan 
Miguel's true motives, this could have been a lot different. 
But, oh no, that didn't happen.
    Ms. Gonzalez. That day in the hospital, INS gave parole to 
my Dad over Elian Gonzalez, and custody. We were supposed to 
show up December 23 to file all the papers and everything that 
was going to be given to this little boy in this country.
    I am sorry if I say something here, but this comes from my 
heart. After Fidel Castro stood up on TV and said he has to be 
returned in 72 hours, everything changed. They took the parole, 
they took everything. They took the right for my dad to 
represent this boy in every sort of way. Now, I was thinking, 
my God, we were there for him that night in the hospital, 
giving him that support he needed. What if this little boy gets 
sick and we need to take him to the hospital and my father has 
no rights over him? What is going to happen to him because his 
father cannot come here?
    A lot of things ran through my mind because in this 
country, to my understanding, if you are a minor and you are 
taken to the hospital and your dad and your mom are not with 
you, then they can't see you. And I was very worried about all 
of this and then INS saying that he has no legal rights here. 
They never heard our point of view. They never gave the 
opportunity of the psychologists to present their stuff 
psychologically of Elian, nothing.
    Senator Smith. And I think the point that needs to be made 
here is that as far as our own Government's involvement here, 
you talk about politics and getting a little boy involved in 
politics. This was bungled from day one by the INS and by the 
Attorney General by going to Cuba to talk to Juan Miguel, which 
was the wrong place. They should have insisted that he come 
here.
    And with all due respect to what Senator Leahy said about 
those of us who got involved in this for political purposes, 
maybe I get 15 votes of Cuban Americans who live in New 
Hampshire. But I would be proud to have all the votes of the 
Cuban American community because I am really impressed with the 
community and the way they have stuck together in very, very 
difficult situations.
    And I did something, Mr. Chairman, God forbid, that some in 
the administration wouldn't take the time to do. I went to 
Miami and I sat down for 2 hours and talked privately with your 
family, and it was a delightful experience, and with Elian. And 
I will never forget it, to have Elian Gonzalez look me in the 
eye. There wasn't any pressure, no pressure whatsoever. I was a 
total stranger and a pretty big guy, so I guess I could have 
been intimidating. But he looked me in the eye and he said, 
ayudame, por favor, Senor Smith, please help me. And nobody was 
prepping Elian to say that, Ms. Reno, no one.
    Let's get the cards out on the table here. And, Mr. 
Martinez, you said it right on the money. It is the number one 
issue; you hit it right on the head. If Elian's mother had 
survived, we would not be here. There are thousands of 
families, unfortunately, who are separated from their loved 
ones. You were separated from loved ones in Cuba, Ms. 
Fernandez. There are so many people who are separated from 
their loved ones. That is the tragedy of this whole thing.
    Why are we picking on Elian Gonzalez and saying his 
mother's dying wish--and I spoke also to the survivors of that 
boat, and the stories that were coming out of this Senate from 
some of my colleagues about kidnapping and all this. All you 
had to do was talk to the people who were involved and you 
would know that that was not true. This is the tragedy that has 
been exploited and it is not Elian's fault. His mother died, so 
he is being punished.
    The other two survivors, God bless them, were heroes, in my 
view, because they did try their best to keep Elian alive as 
his mother's last wish. They have, under the Cuban Adjustment 
Act, the right to be here for 12 months and a day and to make 
their case. Elian doesn't have that right, according to Ms. 
Reno. Well, that is wrong, and what is wrong is wrong. We get 
involved in these issues not because of politics, but because 
what is right--that is why we get involved, because it is the 
right thing to do, and that is why you are here.
    And the tragedy, Mr. Chairman, is this very compelling 
testimony from all of the witnesses here today should have been 
heard 2 months ago. This should have been heard 2 months ago. 
These people have tried to make this case and they have been 
criticized in the press. They have beenexploited by those who--
for example, the grandmothers coming here, as you correctly said, Ms. 
Gonzalez--why didn't the father come here?
    It is totally unbelievable that we have allowed this to 
come down to this. And this little boy, who is afraid that he 
is going to be yanked back to Cuba--how would you like to be a 
6-year-old boy and in the course of 3 months see your mother 
die before your eyes, worry everyday that somebody is going to 
snatch you up and take you back to a country that you want to 
go back to? And I asked him, and I think he understands. I 
think he understood from his mother why he was on that boat. 
That is my view, and you know him better than I do, but I think 
he fully understood and I think he wanted to go. And I think he 
knows what happened and why it happened, and he does not want 
to go back.
    And I said to him in my private conversation, every so 
brief, would you like to see your father? And do you know what 
he said to me? Yes, I would, but I want my father to come here 
to see me; I don't want to go to Cuba because I know what will 
happen. So this is the tragedy, but I think it is shocking that 
not one person from the U.S. Government as far as I know to 
this day has spoken to Elian directly.
    Who can say that a little boy 6 years old doesn't have a 
voice? Anybody out there that has got a 6-year-old child, or 
even a 7-year-old child for that matter, thinks they don't have 
a voice? Of course, they have a voice. And in American law--and 
we all know this--they do have a voice. They are heard in 
sexual harassment cases, they are heard in child abuse cases, 
they are heard in divorce cases every single day in the courts 
in this country. And Elian should be heard.
    Ms. Gonzalez. Excuse me, Senator Smith. Everyday, every 
night, I show this little kid how to pray, and every night I 
hear how he asks God to please return his mother so he could 
stay here. Nobody has ever looked at that. Nobody has had that 
feeling that even though I am standing here and saying it, 
nobody could possibly know how I feel every time I have to go 
to sleep.
    Members of my family who go to my house and deal with this 
little boy do know what he wants, and do know and do feel and 
they suffer the same as I do. But in the long run, we as grown-
ups overcome it. But he goes to sleep every night with fear and 
the sense of not knowing what is his status. He doesn't sleep 
with fear because he is very secure that he is with me.
    And it is incredible how whenever anybody sees me and him, 
how they change their mind. He recently just met me, and every 
night when I wake up to go to the bathroom, even though he is 
in his bed, I don't know how he hears me. He just wakes up and 
stands outside the bathroom door to wait until I come out. And 
I tell him, go to sleep, why are you here? I am not going 
anywhere. And he tells me, oh, I want to make sure that you are 
always with me.
    After he wakes up, there is no way that he goes back to his 
bed to sleep. He has to sleep in my bed. And when he wakes up, 
because he is the first one to wake up in the house, he tells 
me every morning, in these words because he has learned it, I 
love you very mucho, my prima. And he is always telling me how 
much he loves me. And every time I bathe him, everyday, there 
is no day he doesn't say this. When I am drying him up, he just 
hugs me and tells me, I love you, don't go away, don't go away. 
And I tell him, you know, I am never going to leave from you. 
You are OK, everything is going to be fine.
    Sometimes, I feel that psychologically, even though he is 
very good in the house--and he adapted to my house so good 
because he never refers to my house as my cousin's house, my 
uncle's house. He always refers to the house as ``my house.'' 
And it is incredible how he practically just met us and he is 
so comfortable in this home, and he has never woken up in the 
middle of the night asking for his father. Sometimes, it scares 
to me.
    And I always talk to him about his father. When he doesn't 
want to talk to him on the phone and he tells me, if it is from 
Cuba, don't get the phone, don't get the phone, I tell him, 
that is your father, he loves you, you have to talk to him. And 
on one occasion, his father pressured him so much of him going 
back to Cuba, he got very hyper and he told his father, if you 
do not know, my mother drowned, and so did Munero, and I am not 
going to go back over there.
    And to this point, no one has asked how Elian feels, what 
Elian wants, psychologically what Elian said about the trip, 
psychologically how he is feeling, where he wants to stay, 
where he wants to live, with who he wants to live. Everything 
has been political. Everything has been Fidel trying to win his 
trophy, taking people out of work because those people don't 
want to be there screaming, because I have people that have 
come from Cuba and they tell me how they ask them to leave 
their job and to go outside and scream and how the kids go in 
the street because it is a field trip.
    Senator Leahy. Because there is a what?
    Ms. Gonzalez. A field trip, to them. Elian is like a zero; 
he has always been left out. And to my understanding, the case 
is Elian Gonzalez, not Cuba versus the laws of this country or 
anything else. I feel that he has the opportunity to someday 
state to whoever he needs to state, who doesn't believe in this 
matter and who doesn't believe that he should stay in this 
country--for them to allow himto have the opportunity to say 
why he wants to stay here. That is all we ask for.
    It is very hard if they tell you you have to go somewhere 
else where you don't want to because you might be afraid 
because you might have seen a lot of things in that country 
that nobody has allowed you to have the opportunity to say or 
psychologically hear his psychologists. It is very good to 
speak outside of the circle and outside of the situation where 
you are not living it and you don't practically even know what 
is going on.
    Mr. Martinez. Senator, may I make two observations, please?
    The Chairman. Yes.
    Mr. Martinez. On the one hand, you know, in hearing Ms. 
Gonzalez' very heartfelt testimony, having been a lawyer for 
more than 25 years, I am reminded that this is the kind of 
testimony that really belongs in a family court. This is how 
this process has been so manipulated and perverse that, in 
fact, the Senate of the United States is hearing the testimony 
that normally belongs in a family court about a disputed 
custody situation where the best interest of the child is what 
rules.
    Senator Leahy, if I might comment on your comments at the 
opening, you mentioned that the Cold War has ended. And so 
often I hear that as a commentary on how this is not an 
appropriate issue for debate today. The fact of the matter, 
Senator, is that the Cold War has ended, but the Cold War has 
not ended in the Florida Straits. The Berlin Wall came down, 
but that wall of water between the United States and Cuba 
remains even today.
    And the fact is that as we look to this issue, it cannot be 
viewed in the context of a post-Cold War world because Mr. 
Castro remains solidly stuck in the Cold War. You know, he is 
the only world leader who ever not only threatened but 
encouraged and urged that nuclear missiles be launched against 
this country. This is something that seems to be forgotten as 
we just sort of want to rewrite history so that we can just get 
along.
    Why can't we just get along? That is a very popular notion, 
and whether it is interpersonal relations or whether it is 
among nations, the fact of the matter is that the leader of 
Cuba today in 1962--as my parents were there and I was here, we 
were eyeball to eyeball, as Secretary Rusk said at the time. 
Missile bases were no more than 6 miles from my home. It surely 
would have been destroyed.
    Fidel Castro was urging Premier Khrushchev to launch the 
missiles against the United States. That sort of mind set has 
not changed. Mr. Castro over all of that time and until today--
and I am sure as you met with him, you would have found he has 
not reformed, he has not changed. The world has, but he has 
not. His system is the same, his mind set is the same. His 
desire for world conquest of communism continues.
    So the Cold War has not ended between Mr. Castro and the 
rest of the free world. And so what happens now is that there 
are people still climbing their Berlin Wall. There are people 
daily attempting to cross the Florida Straits illegally for the 
opportunity to breathe free. And I believe frankly that it is, 
in a sense, a discriminatory thing, as a somewhat of an unfair 
thing that no one would have ever suggested to a Berliner that 
they should toss the child back over the wall if the mother was 
shot as she attempted to cross it. That never entered our 
discussions as a country, as a people that have stood for 
freedom, during the time of the Cold War.
    The Cold War with Mr. Castro has not ended; he has not 
allowed it to end. And until that happens, we cannot deal with 
these issues in the sterile environment of just the father and 
the son ought to be together.
    Senator Leahy. Insofar as he addressed that to me, Mr. 
Chairman, I should have some response.
    Mr. Martinez, I don't think you will find anybody in this 
room who would disagree with the fact that Fidel Castro has 
become an anachronistic leader. I might use the term ``world 
leader'' differently than you. It is still a small, 
impoverished island nation. To what extent that is a world 
leader, I don't know.
    I would add the adjective ``enslaved.''
    Senator Leahy. Well, I tend to agree with Ms. Fernandez, 
though, that this whole operation has become almost like a 
game. I have to think that many times we in the United States 
give him the excuse. I said to him at one time our embargo 
allows him an excuse to continue a failed economic system 
because he doesn't blame the failures of his own economic 
system, which is a badly flawed system--and both you and I 
would agree--he blames it on us.
    And at a time when we deal with the Chinese and others, 
trying to open up our arms and our markets and all, and we act 
almost anachronistically toward this little country, I wonder 
how long he would last if we just said, fine, let's open 
everything open up. You would find so many people either 
leaving that country or you would find a lot of people in 
America and others going down and investing like mad in the 
country.
    Mr. Martinez. I would say he would last every bit as long 
as the repressive machinery that he has in place would continue 
to oppress the people that they subjugate today. I don't think 
that it is an economic problem. Cuba's is an economic basket 
case, and has been for many years. The only reason that Mr. 
Castro remains in power is through brutalrepression of people; 
it is through fear and intimidation. And that brutal machinery that 
gets down to the neighborhood block of repression is what maintains him 
in power. And I would say that the embargo would only be another 
victory for him which would in no way change the outcome of the plight 
of the Cuban people.
    The Chairman. Well, we are going to turn to Senator 
Schumer, but let me just say this. I have had a little bit of 
experience here, and frankly you are right. The way to resolve 
this is in a domestic relations court with the father, his 
current wife and son there, and the family here in this 
country, and let people who really have expertise do this.
    But I have to say that I remember those years when many on 
the left in this country treated Fidel Castro like an agrarian 
reformer. And I remember a man named Irving Brown. Irving Brown 
was the international vice president of the AFL-CIO. He was the 
number one anti-communist in the world, in my opinion, one of 
the greatest men I have ever met, and he was the inspiration 
behind the National Endowment for Democracy which I helped to 
bring about. I was on its board of directors, its initial board 
of directors.
    And I remember how hard I had to fight on that board to get 
the grant so Amando Vayaderas could write his book, Against All 
Hope. Now, here was a poet who was certainly liberal, who had 
spent, I think, 21 years in Castro's prison who wrote poetry 
with his own blood. And when people read that book, Against All 
Hope--I mean, it came down to one vote and we finally gave the 
grant so that that book could be written--at that point there 
was a tremendous change of attitude toward your father, and I 
think with good reason. I read that book twice, and I recommend 
it to everybody even though it is probably out of print now. 
But it was a great book.
    You are aware of him, aren't you, Ms. Fernandez--Amando 
Vayaderas?
    Ms. Fernandez. Yes.
    The Chairman. I am going to turn to Senator Schumer for 
just a couple of comments, and then I am going to defer to 
Senator Mack, who is a leader in the Senate, and we will finish 
up this panel.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I don't have 
questions of the panel. I couldn't stay for the testimony, but 
I have read some and will be following the rest of it. I just 
wanted to make a brief statement about this issue, which I have 
really not commented on before.
    I guess I received some insight into this issue just a few 
weeks ago when I sat down with a bunch of Cuban Americans who 
were from all over the country. It was just happenstance, 
because frankly before that I could not really understand the 
issue as fully as I did after. And they said to me very simply 
and explained to me--one of them had been a man who had been 2 
years in prison as a result of being part of the Bay of Pigs, 
and he said, Senator, you are arguing that we should be 
rational and we should stop being so angry and we should figure 
out a more rational way to go, but imagine you saying that 
about Hitler.
    And while I am not sure the analogy is exact, it at least 
helps me understand because I always try to be in the other 
person's moccasins a little bit. And it helped me understand 
the passion and the vehemence that people here feel, and I felt 
good about that because I don't like to look at large groups of 
people and say they are behaving irrationally. They may have 
different values and different views than I do, but at least I 
try to understand where they are coming from. And it gave me 
greater understanding.
    Having said that and having followed this case to some 
significant extent, it seems to me the basic parameter that was 
enunciated by Senator Leahy still stands, but should have the 
opportunity to be rebutted, and that is this, that the ultimate 
family value is a child being raised by his parents. That is 
one of the highest paradigms we all place in America, whatever 
place we came from.
    I would say it seems to me--and I will be following the 
case because we are not here influencing the case--that there 
is a very, very strong burden of proof on those who are on the 
other side because children are not politicians; they are not 
even political actors. They are, above all, part of their 
family. I have an 11-year-old--10; she will be 11 next month, 
so she is pushing it. I say 11 to make her happy. You know, 
what would mean most to her is being with her loving family, no 
matter where she lived, despite oppression, despite everything 
that goes on around her.
    And so I still think that ought to be our model, but I did 
want to express to the group here--and that doesn't always 
follow, but it almost always follows. There is a very strong 
burden of proof for removing a child from her or his natural 
parents. But having said that, I understand the passion that 
motivates people, and understand where people are coming from 
on this issue, and would like to say to all of you that I 
appreciate--I may not agree with you, but I appreciate where 
you are coming from and the fight that you are waging. I would 
just ask you not to forget there are lots of values in the 
world, and freedom is one of the highest and family is one of 
the highest, and it is awfully hard when the two conflict to 
make a determination. For a child, at least I would give the 
benefit to family.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    We will turn to Senator Mack. Since he is from Floridaand a 
leader in the Senate, we will defer to him to ask any questions he 
cares to.
    Senator Mack. Thank you, Mr. Chairman, and I want to first 
of all begin by expressing my appreciation to you for holding 
this hearing and giving people an opportunity to express their 
views, which is exactly what I have been trying to bring about 
almost since this case began. And I would stress ``almost'' 
because I said nothing with respect to what was going to happen 
with Elian when the INS made its first statement and decision 
that this was an issue about custody.
    I have very strong feelings about what the conclusion 
should be, but I felt that the issue should be determined by 
what is in the boy's best interest. And the only way to bring 
that about, given what was happening in our country, was that 
after there was a rally and, as Mr. Gonzalez mentioned earlier, 
a demand on the part of Fidel Castro that within 72 hours Elian 
be returned, the INS and the Justice Department said, oh, no, 
no, this is not a custody hearing anymore, this is about an INS 
law.
    And so people talk about politics. It seemed to me at that 
point that political decisions were being made and what was in 
Elian's best interest was no longer the number one concern, but 
it was a political decision about the relationship between two 
countries as opposed to a little boy's future. And it was at 
that point that I suggested that the way to solve this was to 
provide citizenship for the little boy.
    And, mind you, citizenship does not guarantee that Elian 
stays here immediately, forever. It merely would move the case 
away from the INS for the decision to be made by a family court 
which would consider what is in the boy's best interest. I 
thought that was pretty reasonable. I am frankly surprised on 
both sides of the aisle that my colleagues for some reason 
believe that they really know what is in the boy's best 
interest. I mean, I find that really kind of surprising, given 
the little bit of information that they know and picking and 
choosing what information they want to believe. The only way 
that I think the truth is going to come out is if, in fact, 
there is a true discussion about what is in the boy's best 
interest.
    Sometimes, I realize that there is bait thrown out on the 
table to get us to respond to, but I have to respond to the 
innuendo of ``driven by politics.'' I am very proud to say that 
in my 18 years in the Congress, both in the House and the 
Senate, I have been committed to those who struggle for freedom 
and, while it has not been particularly popular in some parts 
of my State, did exactly the same thing--I wish Mr. Rangel were 
here to hear this--did exactly the same thing with respect to 
Haitian immigrants, because to me there is no difference 
whether an individual is Chinese or Haitian or Cuban.
    It is a natural part of who we are as humans to seek 
freedom, and so that is what motivated me to continue the 
effort in helping those who are struggling for freedom, and do 
it in a way in which the little boy's best interest would be 
taken into consideration.
    The question that I would ask the panel, though, because I 
think it fits in with the discussion this morning, because 
there does seem to be a sense of parity or similarity that 
somehow or another if Elian goes back to Cuba, he will have the 
opportunity to be raised the same way in Cuba, that all mothers 
and fathers have the same rights and all of them have the same 
desires in Cuba as they do in the United States--and the 
reality is, as individuals, they do, but I gather from what you 
have said they do not have those same rights as we in this 
country have with respect to our rights as a mother or father.
    I have heard there is such a thing called a child's code or 
something that has to do with the rights of the parents. Would 
each of you try to elaborate a little bit for me about who 
really has the right with respect to raising a child in Cuba?
    Ms. Fernandez. The state raises the child. The state 
decides what he will eat, what he will wear, what school he 
will go to. And as I mentioned in my speech, the state decides 
when he doesn't have any right anymore to drink milk. It is 
when he will get to be 7, no milk. When he will get to be in 
the secondary studies, between 10 and 11 years, he will be sent 
to an internal school and he will be allowed to visit the 
parents 3 days a month. That school is decided by the state, 
too, the career he will study. Until last year, when the Pope 
went to Cuba, religion was forbidden or was a reason not to 
give some university careers to those religious people. So the 
state decides everything.
    Senator Mack. Does anybody else want to comment on that?
    Mr. Formell (interpreted from Spanish). It is important to 
say that in this stage of the dictatorship in Cuba, the parents 
know without even thinking about it that they have no rights at 
all, not knowing the way you would know if it got taken away 
from you tomorrow. It is just the way life is.
    But what has been evident to me since being in this country 
is that people here don't understand that a country functions 
in this way. And the truth is that the child, Elian, symbolizes 
the love and the freedom of Cuba, and the love of a family who 
received him with all their heart. And Fidel Castro knows this 
very, very well because hisdictatorship is based on symbols 
that are known to the Cuban people.
    And he said in one of his press conferences in Cuba that 
Elian is the Baby Jesus, so that now I ask this country what 
does a dictator like Fidel Castro want with the Baby Jesus? He 
wants to eat him, he wants to kill him. And it is a situation 
that is something more than what we see externally, and this is 
the moment for this country and for the entire world to open 
their hearts to understand the reality of Cuba and the mission 
of all Cubans of my age, of my generation and Elian's 
generation, and it is to get rid of hatred, to end hatred that 
Fidel Castro promotes within his system and out of his system.
    This country has a great opportunity to show that the 
greatest force there is is in love and in what is internal, and 
to get rid of the idea of distortion that Fidel always does in 
his manifestations about what the child symbolizes and what 
Cuba symbolizes. In this moment I would like--if my testimony 
could have power and force, I would give freedom and I would 
give citizenship to this child. I would give up my music, I 
would give up what I created, and if I had to be the one to go 
back to Cuba, I would go back, but please don't send Baby Jesus 
back to Cuba.
    Senator Mack. Mel, before you respond, I don't know how to 
describe what is going on in the country. They either do not 
want to hear or have just chosen not to hear what life is 
really like in Cuba. And so I want to just take this one step 
further and take it beyond kind of anecdotal comments to just 
raising this point and asking you whether this is accurate or 
not.
    It is my understanding that there is a Code of the Child. 
Is that part of Cuban law now?
    Mr. Martinez. It is part of the Cuban constitution.
    Senator Mack. Part of the Cuban constitution.
    Mr. Martinez. It is a whole section of the constitution 
devoted to how the state has an obligation for the socialist 
formation of the child; i.e., a child has no choice but to be 
socialist. And it is the state's obligation, over and above the 
parents' wishes about that issue, to ensure that the child is 
raised as a good soldier and as a good socialist.
    Ms. Fernandez. Through an organization called the Pioneers 
Organization. So they have this scarf, blue and white. 
Everybody is obligated to wear that from when they are 3 years 
old, maybe.
    And then I forgot to say something, too. The state will 
decide when you are to become a guerrilla fighter, you know. 
The Cubans have the experience of being in Angola, in El 
Salvador, in Nicaragua, in Afghanistan, in Iraq, in Iran. I can 
name the rest of the world, and we have a lot of disappeared 
people.
    Senator Mack. There is part of that Code, as I understand 
it, that says that society and the state watch to ascertain 
that all persons who come in contact with the child constitute 
an example for the development of his communist personality.
    Mr. Martinez. That is in the Cuban constitution.
    Senator Mack. So it is part of the constitution. What you 
all are saying to us here today is it is carried out probably 
from the age of 3 on. At age 7, another thing happens, school. 
This little boy would eventually end up at a school chosen by 
the state, in which he would then have 3 days a month in which 
to visit the----
    Ms. Fernandez. That happens when they are 10 to 11, 
secondary studies.
    Mr. Martinez. They do farm labor half the day and half the 
day they go to school, but they are in a labor farm, 
essentially a labor camp, where they are living under difficult 
circumstances. Sometimes, they are not supervised. Boys and 
girls run, as boys of that age might, with very little 
supervision.
    Ms. Gonzalez. And if you don't attend there, you could not 
go to school anymore.
    Mr. Martinez. Senator Mack, if I could, I thought Senator 
Schumer's analogy with Hitler and Jewish people was a very good 
one because I often wonder--people think of Cuban Americans as 
a little crazy about the passion that we feel about this issue, 
and it is a perfect analogy to the very passion that any 
oppressed people have felt toward their oppressor.
    And I was so glad that he brought up that issue about the 
parallel between the Jewish people and their, to some, not 
understandable passion about Hitler. But I would also point out 
that as he went on in his comments, I was disappointed that he 
didn't see the importance of what we are doing here for Elian 
because in 1938 or 1939, there was a lady by the name of Penny 
Powers who, in Britain, began something called the Kinder 
Transport, which was taking children out of Germany and into 
Britain to escape Naziism.
    It was that same lady, Penny Powers, who in 1959 found 
herself in Cuba and in 1961 was one of the originators of 
Operation Pedro Pan and who saw me obtain freedom through that 
same process. And so there is a continuity here of those same 
types of issues where I can't imagine Senator Schumer would 
have ever wanted a child in Britain to have been sent back to 
Nazi Germany to be with his father or to be with his mother or 
to be with any relative. There are times when family separation 
is desirable over unification for the sake of other issues that 
are more important.
    Senator Mack. A last question, since I am getting asense 
that I have gone on too long here. In your comments, Ms. Gonzalez, you 
had indicated that the mother said to one of the two survivors, get 
Elian to shore, something about getting his foot onto land.
    Ms. Gonzalez. Yes.
    Senator Mack. Can you explain? I mean, even though I know 
what that is, I think it is important for people to understand 
what the significance of that comment was.
    Ms. Gonzalez. Yes. Almost at the end, she was only left 
with Elian and the other two survivors and an older woman. She 
told the male survivor, which was the last male left, I have no 
more strength, I can't hold on anymore, you are the only male 
left, please allow him to make it to shore, please let him 
touch land.
    The reason she stated this was because if they don't touch 
land, they would have all been returned back to Cuba in regard 
to the law of this country. If you don't touch land, they catch 
you in the middle of the sea; they will return you back to 
Cuba. And he said that he promised that he will make it to 
land.
    Senator Mack. So getting on land meant a right to stay?
    Ms. Gonzalez. A right to stay here. He wouldn't be returned 
to Cuba. To my understanding, there is a law that if you have 
fear to be taken somewhere of persecution, they can't take you, 
right? And I feel that he has this fear and that he should have 
his asylum to be heard, as every other Cuban that has come to 
this country. If they ask for political asylum, they hear them. 
To this point, they haven't allowed Elian to present anything. 
They don't hear nothing from him. He has no rights in this 
country.
    And as we all know, every other Cuban that sails and makes 
it here, they have the rights for parole, they have the rights 
for an asylum, they have all types of rights. And they gave us 
that parole and then they denied it. How can you contradict 
yourself like that?
    Senator Mack. Thank you.
    The Chairman. I want to thank all of you for being here 
today, especially you, Ms. Fernandez, for coming all the way 
from Spain. It is wonderful to see you again, and it has been a 
while since I have seen you, but it is good to see you again.
    Mr. Formell, we are honored to have you and I am looking 
forward to--now, I think you need to be fair here. You need to 
get a CD to our ranking member as well. Will you do that? It 
just isn't right.
    Senator Leahy. What he is afraid of, Mr. Formell, is that 
if you don't, I am going to be camped out in his office 
listening to your CD and he won't be able to get rid of me.
    The Chairman. I am not sure I could tolerate that today, 
the way things are going. [Laughter.]
    So if you will do that, you could send it to me and I will 
hand-deliver it to him.
    Mel Martinez, you have been a particularly persuasive 
advocate here today. I want to compliment you for, I think, the 
reasoned way that you have conducted yourself. I have a lot of 
respect for you.
    Mr. Martinez. Thank you, sir.
    The Chairman. I just want you to know that having come 
through what you have come through in life is really amazing, 
and to be where you are. So we are very proud to have you here.
    Mr. Martinez. Thank you.
    The Chairman. And you, Ms. Gonzalez, I just have such deep 
respect and great feelings for you. We appreciated your, I 
think, very moving testimony here today, and you have done your 
nephew really proud as far as I am concerned. And I think you 
have done your cousin proud who is still in Cuba with his wife 
and son. You are a very good person.
    Ms. Gonzalez. Thank you.
    The Chairman. And I just want you to know that meeting you 
again has meant a great deal to me and I think everybody on 
this committee. So we appreciate you being here.
    I would like to just come down and shake hands with all of 
you before we call up our next panel, if that is all right. Is 
that OK? Well, thank you all for being here.
    Ms. Gonzalez. Thank you.
    [Pause.]
    The Chairman. We have received a written statement of 
Sister Jeanne O'Laughlin which we will insert in the record at 
this point.
    [The prepared statement of Sister Jeanne O'Laughlin 
follows:]

             Prepared Statement of Sister Jeanne O'Laughlin

    On Tuesday, January 25, at the request of INS Commissioner Doris 
Meissner, I agreed to host a meeting at my home between Elian Gonzalez, 
his Miami relatives and Elian's two grandmothers. This was done to 
ensure a safe and secure environment for both families.
    Prior to the meeting, my view on Elian's case was simple: I 
believed the boy should be returned to his father. Somewhat naively I 
felt this was a straightforward custody issue, and that the boy should 
be returned to his surviving parent. My position changed, however, 
after absorbing the events that unfolded at my home and witnessing the 
fear that filled the grandmothers and all involved.
    I sat with INS personnel in my kitchen just prior to the scheduled 
meeting on Wednesday, January 26. Frantic phone calls between INS and 
Cuban officials sought to solve perceived problems. Any of these issues 
could have caused the meeting to be canceled. Cuban officials 
complained about the lack of sufficient security. They demanded to see 
plans and pictures of my home, repeatedly demanded that the boy's Miami 
relatives avoid any contact with the grandmothers. The INS diligently 
sought to answer every demand, while it appeared that the Cuban 
officials were doing all they could to avoid having the meeting take 
place.
    We were told that any outside communication was prohibited, to 
allow the grandmothers uninterrupted time to visit Elian. After the 
grandmothers arrived, Joan Campbell of the National Council of Churches 
asked them if they had any phones. They said no. Shortly thereafter, 
while the grandmothers were visiting with Elian, a phone rang in their 
room. It was a call from Cuba. Major Robbins of the Miami Beach Police 
Department entered the room and asked politely for the phone.
    After their meeting was completed, the grandmothers spoke upstairs 
privately with Joan Campbell and Odel Marichal, a member of the Cuban 
National Assembly and Cuban National Council of Churches. The 
grandmothers' appearance changed dramatically after the meeting. Just 
after visiting the boy, they had been brighter and happier. Something 
apparently was said then by Mr. Marichal, because they left trembling 
and very frightened.
    It was clear from my observations that the Cuban government was 
exerting control over Elian's grandmothers and the National Council of 
Churches. Bob Edgar, NCC president, confirmed this to me in a statement 
that night. He told me that the National Council was no longer in 
charge, that instead he believed Castro was calling the shots. He told 
me then that he intended to withdraw the Council from the situation, 
formally letting the Cuban Interest Section take control. The next day, 
he did just that.
    Most disturbing to me was the Cuban official's insistence that 
family members not be permitted to see each other. The grandmothers, I 
believe, were under strict instruction not to see or speak to anyone 
other than Elian. I found it particularly poignant that Doris, the 
sister of Raquel (the maternal grandmother), asked if she could convey 
condolences to Raquel for the loss of her daughter. She at least wanted 
a chance to embrace her. The answer to both requests was cold 
rejection. This seemed unnatural to me. It reinforced by belief that 
the grandmothers could not act under their own free will.
    I am convinced now that the situation was controlled by Cuban 
officials. It seems apparent that if the Cuban government uses these 
type of pressure tactics, exerting complete influence over Elian's 
grandmothers, that the boy's father is also acting under the Cuban 
government's strict instructions. His true feelings for the future of 
his child cannot be freely expressed. He should be permitted to come to 
the United States, along with his parents, his infant child, and his 
common-law wife, so he can participate in the judicial process. He 
needs to be permitted to speak free of fear from retribution and harm 
to his family.
    My concern and involvement in this case stem from one thing: my 
concern for Elian's best interest. After the meeting I noticed how he 
reacted with joy when he was reunited with Marisleysis, his cousin. I 
witnessed a strong bond between Elian and Marisleysis. He clung to her 
as a child does to his mother. I think of how the boy has lost his 
mother to the seas, and how he might face a second traumatic loss in 
three months if he is sent back right away. I believe the courts must 
take this into any future plans for Elian.
    Other factors have contributed to my decision to support judicial 
intervention:
    <bullet> I was told of evidence of spousal abuse by Juan Miguel 
Gonzalez, Elian's father.
    <bullet> I was told that one of the grandmothers wished to defect 
to the United States.
    <bullet> I was told that Juan Miguel was aware that Elian was 
coming to the United States prior to his departure.
    I would like to emphasize that I didn't learn any of these factors 
from the grandmothers. Rather, I heard these things from independent 
sources, including INS officials, American family members, and other 
persons present on the day of the meeting. At this time I am even more 
convinced that only a court can sort out the truths surrounding this 
case.
    There are many unknowns regarding his environment in Cuba. 
Pressures and expectations placed upon his return must be weighed 
against his potential life in the United States. All of that made me 
seriously question the decision to return this child without a court's 
assistance.
    I believe that a family court is the best place to evaluate both 
environments for Elian before making an irreversible decision to return 
him to Cuba. At a minimum, I hope we can hold an asylum hearing to help 
us evaluate the evidence and determine what harm, psychological and 
otherwise, might occur to Elian if he is returned to Cuba. I ask this 
body to provide Elian with an opportunity to be heard.
    We must find a process to assure that the truth surrounding this 
case be fully examined. We must bring the justice he deserves while 
reverencing the last wish of his dying mother.

    The Chairman. We have three witnesses on our second panel 
this morning, if I could have order. Our first witness is Mr. 
Walter Benda, of Virginia, who will discuss matters regarding 
international custody with us.
    Second, we have Mr. Manuel Gonzalez, of Florida, who is one 
of Elian's great uncles. Mr. Gonzalez, I appreciate the 
difficulties involved in your being here today and we greatly 
welcome you.
    Finally, we have Dr. Kilari Anand Paul. Dr. Paul, like 
others, traveled to Cuba to reunite Elian with his father, but 
his experiences there dramatically changed his view, and he 
will share some of these experiences with us today.
    I want to thank you all for being here. Mr. Benda, we will 
begin with you, and then we will go to Mr. Gonzalez, and then 
we will go to Dr. Paul. Now, I am running out of time. That 
took a lot longer than I thought it would, so if you can sum up 
your remarks, we will put all formal statements into the 
record. If you can do it in 5 minutes, I would appreciate it, 
but we will certainly give you a little leeway.

 PANEL CONSISTING OF WALTER BENDA, CHILDREN'S RIGHTS COUNCIL, 
  MAX MEADOWS, VA; MANUEL GONZALEZ, MIAMI, FL; AND K.A. PAUL, 
        PRESIDENT, GLOBAL PEACE INITIATIVE, HOUSTON, TX

                   STATEMENT OF WALTER BENDA

    Mr. Benda. My name is Walter Benda. I am cofounder of the 
Japan Chapter of the Children's Rights Council, a non-profit 
child advocacy organization with chapters in 32 States, 
Washington, DC, and Japan. I really appreciate this opportunity 
to testify before the Senate Judiciary Committee today.
    I want to start out first by making it perfectly clear I 
have no particular interest in the relations or lack of 
relations of the United States and Cuba. These are two 
governments that have to resolve their political differences 
one way or another. I am here today to tell you how the case of 
Elian Gonzalez affects me personally and how keeping this young 
child here could seriously hurt thousands of American children 
and families like mine.
    I am the parent of two beautiful, intelligent, lovely 
daughters, Mari and Ema, who were born in the United States and 
spent their early here in the United States. Almost five years 
ago, my wife abducted our two daughters in Japan, where we were 
temporarily residing. My daughter, Mari, was 6\1/2\ years old, 
Ema was almost 5 years old at the time of the abduction, which 
is about the same age as Elian when he was abducted without the 
prior knowledge of his father.
    Since that time, my family, including Mari's and Ema's 
grandparents and their uncle, their aunt, their cousins and I, 
have been denied personal relations and direct contact with my 
daughters--no phone contact, no written contact, no personal 
contact, nothing. I have exhausted every possible channel in 
the Japanese legal system, all the way up to the Japanese 
supreme court. I was up against a very aggressive Japanese 
attorney retained by my ex-wife's father, who is a high 
corporate official in Toshiba and retired army general from the 
Japanese Self-Defense Forces, who has connections in high 
places in Japan.
    In the case of Elian Gonzalez, there are influential groups 
in the United States who are at work to influence the United 
States Government to keep the child away from his natural 
parent, ignoring the universal bond of father and son and the 
child's right to be with his father.
    My daughters have been illegally detained in Japan just 
like Elian is being wrongfully detained in the United States. 
In the process, my daughters have been manipulated, isolated 
and alienated from their father and their U.S. relatives, just 
as I fear is happening with Elian's father and relatives in 
Cuba.
    There is no way to express how it feels, the heartbreak 
that happens when your children, the children you love more 
than anything in the world, children who are literally a part 
of you, are ripped away from you. According to legal and 
psychological experts, child abduction is child abuse. It is 
psychological abuse not just for the children, but also the 
family members who are victims of this.
    I have been fighting for almost 5 years to get my daughters 
back, or at least to be able to have some connection to their 
lives. I can understand why Elian's father has not come to the 
United States to try to get his son. I, too, avoided subjecting 
myself to the Japanese legal system because I felt I could not 
get a fair hearing in a foreign country, and I was right. After 
years of jumping through legal hoops in Japan, I still don't 
have my children. I don't even have a minimum level of access 
to them. Precious time has passed, and now I fear my little 
girls might not even remember who I am.
    We hear a lot in this country about family values. People 
here and all over the world have worked hard to pass 
international standards to preserve the sanctity of the family 
worldwide. The United States joined these agreements precisely 
because they help American citizens. It would endanger all of 
our children if the United States openly disregards these 
international agreements with the whole world watching.
    Not sending Elian back to his father would set back 
theclock on making family values a priority worldwide. According to 
State Department figures, there are at least 1,100 American children 
who have been abducted. Their families in the United States might never 
see them again if the U.S. Government does not enforce the INS ruling 
to return Elian to his father. The unofficial estimates are much, much 
higher. The Children's Rights Council estimates that each year there 
are more than 10,000 American children illegally taken or retained 
overseas by a parent.
    The State Department has stated that its effectiveness in 
dealing with children's issues depends on two fundamental 
concepts. The first concept is respecting the parent-child 
relationship, and the second one is respecting the notion that 
a child should live in the country of his or her habitual 
residence.
    My parents are getting older. We fear they may never get to 
see their grandchildren again. Our family has been torn apart. 
For all American families enduring similar situations who 
continue to fight for their children, guided by the laws that 
exist to keep families together, it is absolutely imperative 
that our country abide by the rules and send Elian back to his 
family in Cuba.
    If he is returned to Cuba, Elian will not be living with 
Fidel Castro, he will be living with his family. Many 
psychiatric reports have suggested Elian is suffering trauma 
from the loss of his mother and father, a trauma that may 
become permanent and lead to a personality disorder or other 
serious ailment after 4 months.
    I am encouraged by all the energy that is being focused on 
Elian. I only hope that this energy will also be applied to the 
thousands of American children in the same situation as Elian 
being held wrongfully overseas and isolated from their American 
families.
    One final point I would like to note is the fact that an 
issue like this cuts both ways. We need to consider the impact 
of this case on very similar scenarios affecting U.S. children. 
For example, what happens if there is an international parental 
abduction by a U.S. father or a U.S. mother which results in 
some kind of accident in which the United States abducting 
parent dies and the U.S. citizen child ends up in the hands of 
distant relatives in a foreign country which is not 
particularly sympathetic to the United States?
    In such a case, as well as in all the existing thousands of 
cases of American children being retained in overseas 
countries, the United States will have no moral grounds 
whatsoever to demand the return of American children to their 
U.S. parents and U.S. families if we set a dangerous precedent 
by keeping Elian apart from his father and family in Cuba.
    Thank you for considering these points.
    The Chairman. Thank you, Mr. Benda. Your case is a moving, 
moving story.
    [The prepared statement of Mr. Benda follows:]

                   Prepared Statement of Walter Benda

    I am Walter Benda, co-founder of the Japan chapter of the 
Children's Rights Council, a non-profit, child advocacy organization, 
with chapters in 32 States, Washington, D.C. and Japan. I appreciate 
this opportunity to testify before the Senate Judiciary Committee.
    I must start out by making it perfectly clear I have no particular 
interest in the relations or lack of relations between the United 
States and Cuba. These are two governments that will have to resolve 
their political differences one way or another. I am here today to tell 
you how the case of Elian Gonzalez affects me personally and how 
keeping this young child here could seriously hurt thousands of 
American children and families like mine.
    I am the parent of two beautiful, intelligent, lovely daughters, 
Mari and Ema, who were born in the U.S. and spent their early years 
here in the U.S. Almost five years ago, my wife abducted our two 
daughters in Japan where we were temporarily residing. Mari was 6\1/2\ 
years old and Ema was almost 5 years old at the time of the abduction, 
about the same age as Elian when he was abducted. Since that time, my 
family, including Mari and Ema's grandparents and their uncle, aunt and 
cousin and I have been denied personal relations and direct contact 
with my daughters. No phone contact, no written contact, no personel--
nothing!
    I have exhausted every possible channel in the Japanese legal 
system all the way up to the Japanese Supreme Court. I was up against a 
very aggressive Japanese attorney retained by my ex-wife's father, a 
high corporate official in Toshiba and a retired army general from the 
Japanese Self-Defense Forces, with connections in high places. In the 
case of Elian Gonzalez, there are influential groups in the U.S. who 
are at work to influence the U.S. Government to keep the child away 
from his natural parent, ignoring the universal bond of father and son 
and the child's right to be with his father.
    My daughters have been illegally retained in Japan, just like Elian 
is being wrongfully detained in the U.S. In the process, my daughters 
have been manipulated, isolated and alienated from their father and 
U.S. relatives. Just as I fear is happening with Elian's father and 
relatives in Cuba.
    There is no way to express how it feels, the heartbreak that 
happens, when your children--children you love more than anything in 
the world, children who are literally a part of you--are ripped from 
your life.
    I have been fighting for almost five years to get my daughters back 
or at least be able to have some connection to their lives.
    I can understand why Elian's father has not come to the U.S. to try 
to get his son. I too avoided subjecting myself to the Japanese legal 
system because I felt I would not get fair hearing in a foreign 
country. And I was right! After years of jumping through legal hoops in 
Japan, I still don't have my children, not even a minimum level of 
access to them. Precious time has passed and now I fear my little girls 
might not even remember who I am.
    We hear a lot in this country about family values. People here and 
all over the world worked heard to pass international standards to 
preserve the sanctity of the family worldwide. The U.S. joined these 
agreements precisely because they help American citizens. It would 
endanger all of our children if the U.S. openly disregards these 
international agreements with the whole world watching.
    Not sending Elian back to his father would set back the clock on 
making family values a priority worldwide. According to State 
Department figures, there are at least 1,000 American children whose 
families in the U.S. might have never see them again, if the U.S. 
government does not enforce the INS ruling to return Elian to his 
father. The unofficial estimates are much, much higher. The Children's 
Rights Council estimates that each year there are more than 10,000 
American children illegally taken or retained overseas by a parent.
    The State Department said ``Our effectiveness in doing all of the 
consulate services that we do, but particularly children's issues, 
depends on our ability to adhere to the principles that we espouse. 
Those include respecting the parent-child relationship and the notion 
that a child should live in the country of his or her habitual 
residence.'' Those are fundamental human concepts understood by all. 
They are the ties that bind, the blood ties.
    My parents are getting older. We fear they may never get to see 
their grandchildren again. Our family has been torn apart. For all 
American families enduring similar situations, who continue to fight 
for their children guided by the laws that exist to keep families 
together, it is absolutely imperative that our country abide by the 
rules and send Elian back to his family in Cuba. If returned to Cuba, 
Elian will not be living with Fidel Castro, he will be living with his 
family.
    Elian is suffering trauma from the loss of his mother and dad, a 
trauma that may become permanent, and lead to a personality disorder or 
other serious ailment four months, according to psychiatric reports I 
have heard of.
    I am encouraged by all the emergy being focused on Elian; I hope it 
will result in our political leaders focusing on the thousands of 
American children in the same situation as Elian, being held wrongfully 
overseas and isolated from their American families.
    One final point I would like to note is the fact that an issue like 
this cuts both ways. We need to consider the impact of case on very 
similar scenarios affecting U.S. children. For example, what happens if 
there is an international parental abduction by a U.S. father or mother 
which results in some kind of accident in which the U.S. abducting 
parent dies and the U.S. citizen child ends up in the needs of distant 
relatives in a foreign country, not particularly sympathetic to the 
U.S.? In such a case, as well as in all the existing thousands of cases 
of will have no moral grounds whatsoever to demand the return of 
American children to their U.S. parents and U.S. families, if we set a 
dangerous precedent by keeping Elian apart from his father and family 
in Cuba.
    Thank you for considering these points.
                                 ______
                                 

              [From The Roanoke Times (VA), June 22, 1996]

           Walter, Please Forgive Me for Leaving You This Way

                           (By Michael Croan)

    Walter Benda can see his two young daughters any time he wants--but 
only on a fragmented videotape.
    Benda's wife, Yoko, sent him the home video after leaving him and 
taking their children, Mari and Ema, nearly a year ago.
    ``It's kind of like a hostage video,'' Benda said of the tape, 
which was carefully edited so as not to reveal location or other 
personal information. The girls ``obviously have no idea that they were 
being filmed for me.''
    Benda last saw his children, now 7 and 5, on July 21, 1995, before 
leaving for work in Japan. That morning was normal, he said. ``Each 
gave me a little hug and saw me off.''
    When Benda came home from work that evening, he knew something was 
wrong.
    ``All the bicycles were gone. All the shoes were gone. In Japan, 
you usually leave your shoes outside the door. But they were all 
gone,'' he said.
    The walls were stripped and household valuables were missing. There 
was a note on the table that began, ``Dear Walter, Please forgive me 
for leaving you this way.''
    Benda knew his marriage was over, but that wasn't a major surprise.
    ``We had a perfect marriage, as far as I was concerned, up to 
1992,'' when Benda lost his job as manager of statistics for Northwest 
Airlines, he said. The family then moved to Japan, partially for his 
wife's benefit.
    Soon after the move, Benda said, his wife ``kind of seemed to look 
down on America more and criticized America more.'' She became 
increasingly active with the followers of a man who claimed to be the 
human reincarnation of a Hindu god.
    Yoko Benda's expanding religious beliefs included him faith in UFO 
abduction and channeling, her husband said.
    ``It wasn't something we agreed about, but it created kind of a 
void in our relationship,'' Benda said. ``She started getting very 
involved with things, and I don't have my interest in them.''
    What Benda didn't know, however, was that his wife had made it 
impossible for him to contact his children.
    Benda soon found out that his telephone account had been canceled 
and that he had been assigned a new number. ``The children knew how to 
dial home, [but] there was no way for them to call me,'' he said.
    He said he discovered that Yoko had withdrawn more than $100,000 
from their bank account over 2\1/2\-year period.
    In the months that followed, Benda said he sent out more than 300 
letters and faxes to relatives, friends and various organizations 
searching for any sign of his family.
    He went to his children's former school but was unable to obtain 
any updated information concerning their whereabouts, he said, even 
after enlisting the help of the U.S. Embassy in Japan.
    He went to Japanese police stations with interpreters but said the 
authorities did nothing to help him.
    Benda said he even tried to get old phone records from his home, 
but that his wife had them erased monthly without his knowledge since 
the account was in her name. ``I did everything I could think of,'' he 
said.
    After months of searching for any sign of his children and nearly a 
year without direct contact or communication with them, Benda came back 
to the United States and turned to the law for assistance.
    On re-entry papers submitted to the Immigration and Naturalization 
Service, Yoko Benda had listed her expected address as Max Meadows in 
Wythe County, the home of Benda's parents and the town to which Benda 
expected his family to relocate.
    Consequently, as a ``permanent resident'' of the United States 
according to her re-entry permit, Yoko Benda was indicted this week by 
a federal grand jury in Roanoke on a charge of international parental 
kidnapping.
    If arrested, she faces prosecution under a 3-year-old federal 
statute applied in situations where parents either intentionally leave 
the United States with their children or who, as alleged in this case, 
keep children in another country in order to deprive the other parent 
access to them.
    The Hague Convention, as international treaty formulated in 1980, 
was designed to prevent such situations. Assistant U.S. Attorney Karen 
B. Peters said.
    Peters said that Japan helped put together the treaty but never 
signed it.
    In 1993, she continued, Congress recognized there was a hole in 
trying to address and resolve international parental kidnapping.
    The result was the statute under which Benda was indicted. The law 
is designed to be ``a last-ditch effort to resolve parental abduction 
situations,'' Peters said.
    Yoko Benda faces up to three years in prison and/or a fine of 
$250,000 if convicted.
    However, she will escape proseuction unless she is either 
extradited to the United States or is arrested while voluntarily on 
U.S. soil. That could be a state, a territory or the U.S. Embassy, 
Peters said.
    Peters plans to refer the case to the Office of International 
Affairs in the Justice Department to see what international efforts can 
be made. This is the first time the law has been used by Roamoke 
prosecutors.
    ``It's new and different to me,'' she said, ``and I've been here a 
long time.''
    Peters doesn't expect much assistance from Yoko Benda's native 
country. Current extradition treaties are far too old to provide for 
the new statute under which Benda is being prosecuted.
    ``I would suspect Japan would not extradite for an offense of this 
type,'' Peters said.
    Members of the Japanese Embassy in Washington, D.C., confirmed 
Peters suspicions.
    First Secretary Tatsays Sakoma said the likelihood of extradition 
is slim, especially if physical force or deceptive measures were not 
used to take the children.
    ``If there is . . . no physical violence used in the abductions of 
the children, I think that it would not fall under the conditions of 
dual criminality,'' he said. ``Japan has not criminalized such 
conduct.''
    Walter Benda found that out the hard way. The Japanese police 
``won't step in family matters,'' he said, even in cases of domestic 
abuse, child abuse or sexual abuse.
    In recent months, Benda has been active in assisting the Children's 
Rights Council, a non-profit organization based in Washington, D.C.
    He helped establish the first chapter of the Children's Rights 
Council in Japan, and the organization aims to pursue changes in 
international laws, treaties and policies in order to advocate its 
slogan, ``The best parent is both parents.''
    ``I'm very disappointed in the Japanese system,'' Benda said. 
``Their constitution says parents have equal rights, but I found out 
that's not really true.''

    The Chairman. Mr. Gonzalez, we look forward to hearing your 
testimony.

                  STATEMENT OF MANUEL GONZALEZ

    Mr. Gonzalez (interpreted from Spanish). Good afternoon. 
First and foremost, I need to tell you that I feel destroyed. 
Emotionally, I feel comforted for having met you, meeting you 
and other people with very nice feelings here, with very good 
values.
    On behalf of Juan Miguel and myself, I would like to thank 
you and the whole world for the importance attached to this 
child and for the way in which he has been loved and the 
support he has received and continues to receive. But 
especially I would like to thank the very brave man who saved 
Elian, who rescued Elian, who found him.
    All my family has suffered tremendously because of this 
problem, and continues to suffer. It is a miracle that this 
child survived and a very serious, unfortunate thing that 
Elizabeth has died, along with the other people who died. But I 
wanted to say something, and that is when I was in Cuba, I had 
rights. I had my rights enforced as a father and I knew how to 
fight for my children. And I saw Juan Miguel grow as a seed, 
and grow as a seed into leaves of the family tree, which makes 
him a part of my family, as my father taught me and others in 
my family.
    When I traveled to the United States, I was not wrong. 
Since I was 16, I had a business and I was able to struggle for 
myself and was able to have a family. And when I came to the 
United States with my children, my mind only focused on their 
future, but life set a trap for me. But I lost what I brought 
here to see myself in him, my son. He died of cancer.
    That is why I am struggling vis-a-vis you and other people 
with reasoned minds such as yourselves to help return this 
child to his father, who needs him. This is not a whim. Every 
son needs the father, the character of his father, and his 
father's tenacity, regardless of where he is, so that the child 
might follow the right path. We all know this as parents.
    Since the unfortunate event whereby Elian lost his mother, 
I had everything. I had vacations and plans to travel to Spain 
with my wife. Hours before, I was told that Elian was found, 
and I found out through my other relatives that he has set to 
come to the United States. My sister, Caridad, the eldest, who 
is promoting family reunification, who never wanted anybody to 
travel unless it was through legal means--since 1980, Caridad 
requested family reunification for all of us.
    So she was the one to call my home. She told me that the 
child had been found, that he was at the hospital, and that he 
was fine. She told me that Lazaro and Delfin and she were going 
to pick him up. I had little time, and since it was in the 
hands of my family, we were sorry, but we left to the airport 
because we had very little time before the flight.
    So we left and we were in Spain, and during our stay in 
Spain my daughters thought that it was best not tell me how 
things were developing because before that I had had a heart 
procedure. And so for this reason, so that I wouldn't feel bad, 
they hid the facts from me.
    When I was going back to Madrid from La Coruna, I came upon 
a passenger who was reading a newspaper and I asked him to lend 
me his newspaper, and that is how I began to find out about 
what was happening over there. I don't want to go on and on, 
but when I arrived in Miami at 9, 10 p.m. or so, I decided to 
wait until the next day to see my brothers.
    So the next day, as early as I could I went there, or at 
the earliest hour, rather, I went there to see the child and to 
speak with my brothers. They told me what was happening and I 
asked them to organize a family meeting and to engage in a 
debate and so debate the situation. What is more, I said that 
if I had to travel to Cuba, I would do so to over there find 
out what the father had decided. And I said that a decision 
should not be made insofar as what they wanted, and they said 
no, absolutely no. They said that they would come; they had to 
come.
    I left after I spent some time discussing things withthem. 
I went back to work. I leave work at 10 p.m. I work from 9 a.m. And I 
decided to go back because I think that things should not remain there. 
So I went back and they did not want to say hello in that household. 
They were not on my side.
    That was the first time that I was hurt. It was like being 
a persona non grata because I did not share their ideas, and I 
left shattered to my home. And with my brother, Delfin, there 
was a discussion regarding something that appeared in the 
papers, in the Herald, and I think it was either on the 9th or 
the 10th of December, I think.
    I asked him to tell me what the paper said. I was being 
accused of favoring the return of the child to Cuba, and that I 
was sympathetic to the regime. My brother denied this to me and 
I asked him to make a statement to retract what the paper said 
in keeping with the truth, but nothing like that happened and 
time passed.
    My niece invited me, Marisleysis, to visit her home, that 
there was nobody was there. Her father was not there, she said, 
which really didn't matter because I feel that although he 
doesn't want to talk to me, he is my brother and I can talk to 
him. And proof of that is the fact that I returned to that 
household, and I will continue to go.
    And when I went there, the press was there. My brother, 
Delfin, was there. We discussed, and my life was shattered 
because there are two nephews and nieces that are pulling me 
with respect to one same issue. When I went into the bedroom, 
the child hardly knew me, and I found it difficult for him to 
give me a kiss. What I want to say is that Marisleysis had to 
ask him to give me a kiss and he gave me a kiss.
    As I said, I was already hurt. I saw this child being born. 
I went 4 times to Cuba and I saw him repeatedly up until a year 
before this unfortunate event. I like that kid very much. I 
liked the way he was and I played with him a lot, and he felt 
close to me because I resemble his grandfather very much, the 
other brother; that is, Juan Miguel's father. And he would play 
with me at times, thinking that I was his grandfather.
    When I was leaving the home of Marisleysis, I dared try 
something again. I said, Pepo, don't you remember me? Don't you 
remember that your uncle taught you a prayer that says, 
guardian angel, don't leave me day and night? I taught him that 
prayer. Once when there was a light--the electricity went out 
in Cuba and he was very nervous. He was with his mother, but he 
was very nervous and he didn't want to go to sleep. And I took 
him in my arms and I put him sleep and he fell asleep while 
listening to this prayer.
    The Chairman. Let me interrupt a second, Mr. Gonzalez. We 
are running out of time. As I understand it, you at first felt 
that Elian should go back to Cuba, but you have changed your 
opinion.
    Mr. Gonzalez. No.
    The Chairman. Your opinion is he should go back?
    Mr. Gonzalez. If you want me to be brief, I will be brief--
--
    The Chairman. If you can be brief, I would appreciate it.
    Mr. Gonzalez. But I want you to know the reason why I think 
he should be returned to Cuba.
    The Chairman. Give us that reason, then.
    Mr. Gonzalez. The way I think is that that child is going 
through a shock. He doesn't know where he is, and one must act 
urgently and give this child the attention he needs. It seems 
to me that the family that brought him up, the family that gave 
him nurturing to date, the family who understands him and 
really understands him, should provide the therapy that that 
child needs at this time.
    The Chairman. All right. Well, we appreciate your 
testimony, Mr. Gonzalez. Is there anything else you would care 
to say?
    Mr. Gonzalez. Should I be brief?
    The Chairman. Yes.
    Mr. Gonzalez. That is enough.
    The Chairman. Well, thank you.
    We will turn now to Dr. Paul. Dr. Paul, we are going to 
limit you to 5 minutes because we are out of time.

                     STATEMENT OF K.A. PAUL

    Mr. Paul. Thank you for inviting me here. I come before 
this committee as a man who has dedicated his entire life to 
Christ and the gospel. I am Indian by birth. My embrace of 
Christianity has been subjected to calculated acts of violence, 
religious intolerance, and vicious ethnic prejudice. I have 
personally been beaten and left for dead on the streets of 
India because of a simple declaration of faith.
    I wear those scars proudly, for they are a daily reminder 
of my commitment to Christ and the principles upon which he 
lived and died. As a result, I understood only too well how an 
entire society anywhere on this globe can teeter on the brink 
of an abyss that makes bigotry an accepted, even celebrated 
national trait. I have seen firsthand the dynamics of crowd 
mentality where the world of right and wrong is turned upside 
down and truth becomes an after-thought.
    There are far more studied men and women than I who have 
written in-depth reports on the nature of regimes that regard 
liberty and religion as threats. Nevertheless, from my own 
travel around the world, I can personally offer testimony 
regarding the methods by which despots manipulate their 
society, their citizens, and their perception of reality.
    It is with a sense of despair that I must report to this 
committee that I have become a reluctant expert on this matter. 
So it is against this backdrop that I report to you regarding 
my mission to Cuba.
    I believe that the Havana government is engaged in the 
cold, calculating and cynical use of Elian Gonzalez' father for 
the purpose of scoring an international propaganda victory 
unseen since the Bay of Pigs invasion some 40 years ago.
    I initially traveled to Cuba prepared to work toward 
reuniting Elian with his father in his native Cuba because I 
believe that is the natural order of things. What I found when 
I arrived was a political environment so controlled that it 
makes other authoritative governments around the world look 
like an enlightened democracy.
    While virtually every move I made was monitored, I was able 
to speak to credible sources who risked their freedom to 
indicate that Elian's father wants his son to remain in a 
nation where freedom from fear is a way of life. I would submit 
to the members of this committee that this is the ultimate 
sacrifice a father can make and requires unimaginable courage.
    Mr. Gonzalez is under, for all intents and purposes, 
government house arrest where his public comments, his living 
accommodations and his travel arrangements are all monitored 
and controlled. The Cuban government understands the power of 
this story and they are using it to write what may be the last 
closing chapter of the chronicles of the Cold War. I was in 
Fidel Castro's office in the building to witness this.
    How it will end is unclear to me, but I left Cuba a humbled 
man. I thought I understood what was at stake here, the simple 
return of a boy and his father. What I found is that Big 
Brother is alive and well and is casting a shadow on Elian and 
his father that seeks to smother the human spirit.
    Members of the committee, I do not have a political agenda. 
I speak from only one perspective, that of a man who seeks to 
bring Christ to a world suffering from poverty and pain and 
persecution. In traveling to Cuba, my motives were indifferent 
to the politics one finds there. I was focused on one thing, 
and one thing only, reuniting a broken family. After my 
experiences in that land, I must speak from the heart and 
respectfully suggest to you that if this Nation does not grant 
citizenship to Elian, we will be creating a stain upon the 
fabric of this democracy that will last for generations to 
come.
    To answer your question quickly, sir, you have raised a 
wonderful question which no one could really bring to your 
attention. I have challenged the chief of staff of the Fidel 
Castro central committee. I was there for 3 days. All the 
questions that are going on in American minds--why would he not 
send the father and his present wife and the stepson and the 
family members, relatives and grandmothers to America and let 
them speak once they are in a land of freedom, rather than 
being manipulated and controlled and speaking for the 
government rather than themselves?
    I have challenged that we would, with our committee members 
and the board who have our own airplanes, bring the family even 
in an exchange. I will keep my family there, my wife and three 
children, or my two associates, and let them come here and 
speak for themselves.
    The question is why am I involved. This week, I am supposed 
to speak to a million people. Why am I here? It breaks my heart 
to see--after being to 65 countries personally, worked in 
countries in the Middle East and China 2 dozen times, and 
working with about 18 heads of state around the world, I have 
never seen a man, which was the first time my eyes were open, 
so successful controlling millions of people for 4 decades, and 
seeing millions of people literally die.
    People would rather leave Cuba and die in the middle of the 
sea than live there. I met 150 leaders, including street 
children, street people, to the bishop of that nation whose 
priest hosted 9 days of grandmothers. I met the governmental 
people. I met with doctors and engineers and professional 
people, because I am not a politician. I have no personal 
agenda and our organization has helped tens of thousands of 
children around the world. We want to help make possible the 
boy to be reunited.
    As a matter of fact, as a witness, I was talking to members 
of the Congress. My friends, why are you fighting to keep the 
boy here? When the mother died, we should return the boy back 
to his father. I have talked to my committee, board members 
like Coach Bill McCartney and E.V. Hill and Bunker Hunt and 
J.B. Hunt, great leaders who believed that the boy should be 
sent back originally, and the chairman of our board.
    After I talked to many of these leaders and after I went to 
Cuba, when I found the truth, when I was in a situation where 
they invited me to meet the father and then would not let me 
meet the father alone--and they would only ask me to meet the 
father in Castro's building with five others, like Barbara 
Walters had an interview. The father is not able to speak for 
himself. It is very true. Anybody that has common sense and 
knows the truth at all would speak the truth. The truth is 
Fidel Castro is taking advantage.
    As a matter of fact, I have been informed by the people in 
Cuba recently that I am on one of his hit lists. And on 
national television and radio it was announced in Cuba I have 
been given millions of dollars. They don't know this. I 
personally earn millions of dollars and not a dime I keep. I 
live in a little rented house and I do not own anything in this 
world, and we help 300,000 children and millions of people 
around the world and we have no personal agenda.
    As a matter of fact, I am praying with 8.5 million of my 
prayer partners that Castro will repent. It is time for him to 
change his mind and repent and keep his political agenda aside 
and let the people--let the boy stay here, family come here, 
and people to be free. It is enough because God is watching all 
these things and enough is enough. We don't need any more 
bloodshed, we don't need any more millions of people to suffer.
    Thank you for you taking a stand, and the rest of all the 
committee members, and please do whatever you can as soon as 
possible for justice to be served. God bless you all.
    Thank you.
    The Chairman. Thank you, Dr. Paul.
    [The prepared statement of Dr. Paul follows:]

                  Prepared Statement of Dr. K.A. Paul

    I come before this Committee as a man who has dedicated his entire 
life to Christ and the gospel. Indian by birth, my embrace of 
Christianity has been subjected to calculated acts of violence, 
religious intolerance and vicious ethnic prejudice. I have personally 
been beaten and left for dead on the streets of India because of a 
simple declaration of faith. I wear those scars proudly for they are a 
daily reminder of my commitment to Christ and the principles upon which 
he lived and died.
    As a result, I understand only too well how an entire society 
anywhere on this globe can teeter on the brink of an abyss that makes 
bigotry an accepted--even celebrated--national trait. I have seen first 
hand the dynamics of crowd mentality where the world of right and wrong 
is turned upside down and truth becomes an after thought.
    There are far more studied men and women than I who have written in 
depth reports on the nature of regimes that regard liberty and religion 
as threats. Nevertheless, from my own travels around the world, I can 
personally offer testimony regarding the methods by which despots 
manipulate their society, their citizens and their perception of 
reality. It is with a sense of despair that I must report to this 
committee that I have become a reluctant expert in this matter.
    So it is against this backdrop that I report to you regarding my 
mission to Cuba.
    I believe that the Havana government is engaged in the cold, 
calculating and cynical use of Elian Gonzalez's father for the purpose 
of scoring an international propaganda victory unseen since the Bay of 
Pigs invasion some forty years ago.
    I initially traveled to Cuba prepared to work toward reuniting 
Elian with his father in his native Cuba because I believe that is the 
natural order of things. What I found when I arrived was a political 
environment so controlled that it makes other authoritative governments 
around the world look like an enlightened democracy. While virtually 
every move I made was monitored I was able to speak to credible sources 
who risked their freedom to indicate that Elian's father wants his son 
to remain in a nation where freedom from fear is a way of life.
    I would submit to the members of this Committee that this is the 
ultimate sacrifice a father can make and requires unimaginable courage.
    Mr. Gonzalez is udner--for all intents and purposes--government 
house arrest where his public comments, his living accommodations and 
his travel arrangements are all monitored and controlled. The Cuban 
government understands the power of this story and they are using it to 
write what may be the last closing chapter in the chronicles of the 
Cold War.
    How it will end is unclear to me but I left Cuba a humbled man. I 
thought I understood what was at stake here--the simple return of a boy 
and his father. What I found is that ``Big Brother'' is alive and well 
and is casting a shadow on Elian and his father that seeks to smother 
the human spirit.
    Members of the Committee, I do not have a political agenda. I speak 
from only one perspective--that of a man who seeks to bring Christ to a 
world suffering from poverty and pain and persecution. In traveling to 
Cuba my motives were indifferent to the politics one finds there. I was 
focused on one thing and one thing only--reuniting a broken family. 
After my experiences in that land I must speak from the heart and 
respectfully suggest to you that if this nation does not grant 
citizenship to Elian we will be creating a stain upon the fabric of 
this democracy that will last for generations to come.
    I would welcome your questions.

    The Chairman. I am going to turn to Senator Leahy for any 
questions he has.
    Senator Leahy. Mr. Chairman, I know we have gone way over 
time and I just have one question for Mr. Benda, if I might.
    With the Children's Rights Council, you deal with a lot of 
other families and a lot of other parents involved in 
international custody matters. I have talked with a couple of 
friends of mine who are in situations like this. I wonder if 
you might tell us, do you have any expression from some of the 
people you talk with about how they feel about the way the 
United States is handling the Elian Gonzalez case, whether it 
is helping or hurting their efforts to get their children back?
    Mr. Benda. Yes. I get an e-mail on a daily basis from a 
network of parents who have had their American children 
abducted overseas or retained overseas, and with very few 
exceptions, they universally feel that Elian should be reunited 
with his father in Cuba. I mean, we all feel that children 
should be returned to their natural parents and the Government 
shouldn't interfere, like is happening here.
    My perspective is I feel like Elian was abducted without 
his father's knowledge, which in this country is viewed as a 
felony crime. And I don't know about the laws in Cuba, but if 
we respect the concepts we have in this country, we need to 
return him to his father.
    Senator Leahy. Thank you.
    Lastly, Senor Gonzalez, I am both a parent and a 
grandparent, nowhere near the number of grandchildren that the 
chairman has, but he is much older than I am.
    The Chairman. That is true.
    Senator Leahy. I appreciate the expressions of love you 
have stated for this young boy, just as I appreciate the 
expressions of love that Ms. Gonzalez stated earlier. There 
seems to be a lot of love for this little boy, and I would hope 
you would continue to show that to him no matter how this turns 
out because he has gone through so much in just these few 
months, so much more than any little boy should have to go 
through.
    And I fear that some of the efforts of well-meaning people 
on both sides have just made it worse. So I would hope that 
with his family members either here or in Cuba, he can have the 
protective embrace of love because the Lord knows this little 
boy is going to need love far, far more than most little boys 
of his age.
    Thank you.
    The Chairman. Well, thank you. I appreciate all of your 
testimony. It has been very helpful here today. Mr. Benda, I 
have great sympathy for you and what you have gone through. I 
have worked with some families whose children have been 
abducted, and when you have countries that aren't subject to or 
aren't going to abide by the Hague and other conventions, it is 
a real problem.
    But here we are talking about a case where there has not 
been an abduction, where the mother tried to escape and bring 
her child to freedom and died along the way. And this problem 
has to be resolved and I am hopeful that we can get it resolved 
one way or the other, but it needs to be resolved in the best 
interests of this young boy.
    We have had some very dramatic testimony today on both 
sides of this issue and it has been helpful, and with that I 
think I won't ask any questions. I think we will just recess 
until further notice.
    Mr. Gonzalez. I wanted to know whether I could hand you a 
letter that Juan Miguel sent me.
    The Chairman. Of course, you can. That would be fine. We 
will take that and we will read that and we will put it in the 
record.
    [The letter referred to appears in the appendix.]
    The Chairman. With that, we will adjourn until further 
notice. Thank you.
    [Whereupon, at 1:30 p.m., the committee was adjourned.]
                              ----------                              


                 ADDITIONAL SUBMISSIONS FOR THE RECORD

                              ----------                              


Prepared Statement of Hon. Sheila Jackson-Lee, a U.S. Representative in 
                    Congress From the State of Texas

    My statement for this hearing will be limited to Sen. Mack's bill 
to make Elian Gonzalez a citizen of the United States, For the relief 
of Elian Gonzalez-Brotons, S. 1999.
    I am the ranking member of the Subcommittee on Immigration and 
Claims in the House of Representatives. Many people have asked me why 
the Immigration and Naturalization Service wants to deport a little boy 
to Cuba. This is a misunderstanding. The Immigration Service does not 
intend to deport Elian. He is not in immigration proceedings; he has 
never been in immigration proceedings; and the Immigration Service has 
no intention of ever putting him in immigration proceedings.
    Elian was paroled into the United States for emergency medical 
treatment and then placed in the physical care of his great uncle, 
Lazaro Gonzalez. Although Elian is in the United States physically, he 
is technically still at the border. The Immigration Service can permit 
him to remain in the United States in parole status, or it can revoke 
his parole status and return him to his father.
    I have been assured by representatives of the Cuban government that 
Elian's father can have an exit permit to come to the United States for 
the purpose of taking Elian home, and I am confident that his wife and 
child in Cuba would be allowed to go with him to dispel any concern 
about whether he would be free to speak and act freely while he is 
here.
    I have also been asked whether a private bill is necessary to make 
it possible for Elian to remain in the United States permanently. This 
is based on a misunderstanding too. The Department of Justice has been 
willing from the beginning to permit Elian to remain in the United 
States. With his father's permission, he would be permitted to stay 
here and become a lawful permanent resident of the United States under 
the Cuban Adjustment Act. If Elian returns to Cuba, it will be because 
his father decided that he should return.
    There is only one way to keep Elian Gonzalez in this country and 
that is to prevent his father from being the person who decides where 
Elian will live. Elian's great uncle, Lazaro Gonzalez, is trying to do 
that right now in federal court proceedings. I filed an amicus brief in 
that case last week with the Children and Family Justice Center from 
the Northwestern University School of Law. We appreciate the fact that 
Lazaro Gonzalez and his family love Elian and want him to be able to 
stay in the United States, but that does not justify what they are 
doing to Elian's father.
    All of the great uncle's arguments are predicated on the assumption 
that he has a legal right to speak on behalf of another man's six-year-
old child. In the words of Attorney General Janet Reno, the issue in 
this case is, ``Who speaks for the child?'' No credible authority on 
child development would sanction ceding responsibility for critical 
decisions about his future to a child of such tender years. See 
Bellotti v. Baird, 433 U.S. 622 (1979). That question was properly 
addressed and answered by the Immigration Service. We agree with the 
Immigration Service's decision that Elian's father, Juan Miguel 
Gonzalez, and only Juan Miguel Gonzalez, should be allowed to speak for 
Elian. I want to add now that I do not think Congress should weigh in 
and try to overrule the Immigration Service's decision.
    I am concerned about the risk we take when we interfere with the 
right of the father to speak for his young son. We must guard that 
right. It is a fundamental tool for safeguarding the family unity 
values of our society.
    I know some people believe that interference is justified in this 
case to prevent this little boy from being returned to Cuba. Frankly, I 
do not know what is in Elian's ``best interests.'' I do know, however, 
that his father should decide what is in his best interests, not me, or 
Lazaro Gonzalez, or the Congress. The ``best interests'' standard only 
applies to disputes between two parents. The Supreme Court held in 
Santosky v. Kramer, 455 U.S. 745 (1982), that before a court can even 
explore the subject of a child's so-called ``best interests'' when the 
dispute is not between two parents, it must first determine through a 
finding of parental unfitness that the parent has failed to meet 
minimally acceptable standards for the care of the child. Moreover, the 
Court in Santosky sets a particularly high standard for ending the 
legal relationship between a parent and a child, requiring that the 
initial showing of parental unfitness must be supported by ``clear and 
convincing evidence.'' Id. at 769. This high standard derives from the 
basic tenet of family law, presuming that the individuals best suited 
to nurture and protect a child will normally be the child's parents. 
Pierce v. Society of Sisters, 268 U.S. 510, 535 (1925).
    The purpose of such safeguards is to ensure that children are not 
separated from their families for reasons that have more to do with the 
racial, religious, or cultural biases of the decision maker than with 
legitimate concerns for the protection of the children. Our laws have 
created a standing doctrine and other gatekeeping devices that regulate 
incursions into parent-child relationships not only protect parents 
from decisions that could ultimately strip them of their authority 
without just cause, but also shield families from the unnecessary 
burden of expensive, intrusive, and protracted legal proceedings.
    The history of family law is replete with examples of the harm 
caused when children are forcibly removed from parents for reasons 
inappropriately laden with subjective and culturally-based value 
judgments. For example, in Roe v. Conn, 417 F. Supp. 769 (M.D. Ala. 
1976), a federal district court struck down a state statute that 
permitted the removal of a child from his mother for ``neglect'' based 
solely on the fact that she was living with a man of a different race. 
The passage of the Indian Child Welfare Act is another example. It was 
the result of decades of pernicious cultural and ethnic stereotyping 
that led to the decimation of many Native American communities through 
the forcible removal of their children by non-Indian child welfare 
authorities.
    The sanctity of the family is central not only to U.S. law but to 
international law as well. The United Nations Convention on the Rights 
of the Child, Preamble and Articles 5, 10 and 18, recognize the 
fundamental importance of the rights of parents regarding care of their 
children and the duty of participating states to treat applications to 
reunify children with their parents in a positive, humane, and 
expeditious manner.
    The main thing that you would achieve by making Elian a citizen of 
the United States would be to take away the Immigration Service's 
responsibility to decide who should speak for him. As a citizen of the 
United States, that decision would be made by a state court judge. 
However, this is not at all likely to change the outcome of the dispute 
over whether Elian will be returned to his father.
    Lazaro Gonzalez has already brought an action in state court to 
obtain the right to speak on Elian's behalf. The issue in that suit 
will not be whether it is in Elian's best interests to stay in the 
United States. Lazaro Gonzalez will have to show by clear and 
convincing evidence that Elian's father is an unfit parent, and he 
cannot prove that Elian's father is an unfit parent simply because he 
is a Cubanwho wants to raise his children in Cuba.
    Elian is being harmed by the delay in returning him to his father 
and his grandmothers. I want to reunite this family as soon as 
possible. I have not met his father, but I have met his grandmothers. 
They begged me to do what I can to return Elian to his family. I was so 
moved by their tears when they pleaded for my help that I cried too.
    I submitted a letter from Dr. Bennett L. Leventhal with my amicus 
brief. Dr. Leventhal is a Professor of Psychiatry and Pediatrics at the 
University of Chicago. He believes very strongly that it is wrong to 
prolong the agony of Elian's present situation.
    According to Dr. Leventhal, ``it would appear that prior to 
November 1999, Elian lived in a stable, reasonably healthy 
environment.'' He observes that ``Since that time, he has been exposed 
to grave dangers, the death of his mother and a horrendous struggle 
over him and where he is to live. His privacy has been violated. * * * 
He has been directly and persistently exposed to an apparently 
interminable and incomprehensive, intense dispute amongst adults. And, 
his current situation is so unstable that he does not know where he 
will live, and who can and will take care of him.'' Dr. Leventhal 
emphasizes that, ``Any one of these circumstances would place any child 
at great risk for developmental disturbance but the combination of so 
many problems must be an overwhelming stress for this child. Dr. 
Leventhal concludes that, ``The duration and intensity of the conflict 
and his exposure to them must end immediately.''
    I urge you to respect the right of Elian's father, Juan Gonzalez's, 
to decide where Elian will live and not to prolong this stressful 
situation unnecessarily by making an unsolicited grant of citizenship.
                                 ______
                                 

  Prepared Statement of Hon. Charles Rangel, a U.S. Representative in 
                  Congress From the State of New York

    Elian Gonzalez and his family--who have already suffered terrible 
loss--remain separated so that those obsessed with the Castro regime 
can score points by shamelessly appealing to the emotions of the Cuban-
American community.
    If permitted to testify today before this committee as originally 
proposed, I would have voiced my profound disappointment in my 
government and the Cuban government for also letting a child be used as 
a political football on the playing field of U.S.-Cuba relations. How 
could a 6-year-old boy who had just lost his mother and floated alone 
at sea be placed in the hands of adults with questionable backgrounds 
and plunged into the middle of a three-ring media circus?
    In the supposed name of freedom, much psychological and emotional 
damage has already been inflicted on Elian by isolating him from the 
father he needs now more than ever. After they met with their grandson 
in Miami, Elian's two grandmothers told me and other concerned members 
of congress that they found this once happy, secure, mischievous, and 
otherwise normal boy to be strangely sad and withdrawn. Without the 
love and comfort of those who raised him to guide him through the 
grieving process, the chances grow that this harm will be irreversible.
    In a blatantly political attempt to circumvent the laws, rules, and 
diplomatic accords used for resolving immigration decisions in this 
country, some members of Congress tried to delay Elian's return to Cuba 
by advocating the unprecedented step of making a young child a citizen 
or permanent resident without the consent of his parents. This is 
despite the fact that in the great majority of cases, congress has 
naturalized individuals in order to reunite, not separate families.
    Proposals to grant Elian citizenship or permanent resident status 
are unfair to thousands of refugees who flee other countries in search 
of a better life. Normally, refugees are immediately deported if they 
come illegally, or forced to wait years to become citizens if they 
arrive through legal channels. The proposals are also unfair to other 
Cuban Americans who, though receiving extraordinary guarantees upon 
reaching our shores, still must wait to become permanent residents and 
then citizens. Do we really want to encourage desperate parents in 
other nations to risk the lives of their children under the false hope 
that they too might receive special treatment?
    U.S. citizenship should be treated as the precious gift that it is, 
not as a political tool. It's sad that some members of Congress are 
eager to cheapen the hard work and sacrifice made by so many immigrants 
who play by the rules by pandering to special interests in Miami. In 
proposing such outrageous measures to derail Elian's return to Cuba, 
they would set a dangerous precedent and in the process demean the 
legislative branch.
    Thanks to pleas for sanity from Elian's grandmothers, an 
overwhelming majority of the American public, and a group of Democrats 
and Republicans including some of the strongest family values advocates 
in Congress, this misguided effort was stopped before it got off the 
ground. They all recognized that both legally and morally, a boy 
clearly belongs with his father, and it is the sole surviving parent 
who bears the right and responsibility for deciding what's best for his 
son. The INS and Justice Department were granted by Congress the 
authority to deal with immigration and international custody cases, and 
they have done so effectively this time by carefully considering all 
relevant U.S. statutes and regulations, bilateral accords with Cuba, 
and all available evidence on the father's relationship with his son. 
Congress now should let them do their job as it was originally 
intended.
    As we await the ruling from the federal court in Miami--which 
according to legal experts should by all logic reaffirm the INS 
decision in this case--those in Congress who have insisted on 
prolonging the political circus around Elian should reconsider their 
actions. If we truly believe in the meaning of citizenship, in obeying 
our own laws and bilateral agreements, in legal and fair immigration, 
and most important of all, in the sacred bond between a child and his 
parents, then we should send Elian back to his father as soon as 
possible. Anyone trying to invent new rationales for slowing down this 
process is grasping at straws and should be ashamed for showing so 
little concern for the welfare of one innocent boy and his family.
                                 ______
                                 

Prepared Statement of Silvia Wilhelm, Executive Director, Americans for 
                      Humanitarian Trade With Cuba

    Mr. Chairman and Esteemed members of the Senate Judiciary 
Committee; first of all I want to express my deepest gratitude for 
having been asked to testify at this hearing which will discuss the 
possibility of granting Elian Gonzalez, the six year old Cuban boy 
found floating on an inner tube off the coast of Florida on 
Thanksgiving day and now living with distant relatives in Miami, the 
citizenship of the United States of America. I am submitting a written 
statement for the Committee since I will be unable to testify in person 
for I am on my way to California to greet the arrival of my second 
grandchild and as important as this hearing is, family has and will 
always come first. And this is exactly what this hearing should be all 
about, the importance and integrity of the family.
    I have the honor to serve as the Executive Director of Americans 
for Humanitarian Trade with Cuba, a national coalition of business, 
humanitarian, religious and Cuban Americans, all working together to 
end the present United States embargo of food and ``de facto'' embargo 
of medicine and medical products to Cuba. But I am not here to testify 
in that capacity but in my capacity as a Cuban American woman resident 
of Miami, a wife, mother and grandmother who cares deeply about my 
adopted country, as well as Cuba, the country of my birth.
    In January of 1961, when I was a child, my family made one of the 
most important and difficult decisions of their lives and that was to 
send me alone to the United States in what is now known as ``Operacion 
Pedro Pan'' which eventually took over 14,000 unaccompanied minors from 
Cuba in order to flee Communism. They did this for two reasons: (1) The 
changes happening in Cuba at the time as a result of the revolutionary 
government new policies and the possibility of new and more drastic 
changes made my family apprehensive about my future and they elected to 
send me to the United States, a country they knew well and where they 
felt confident I would be safe from harm. In 1961 and the realities the 
Cold War, this was a logical assumption; (2) My family was equally 
confident that this separation would be short lived for they believed 
the United States of America would not permit a Communist government 90 
miles away from their shores. The separation was indeed short lived for 
after the Bay of Pigs fiasco they also left the country in August of 
1961.
    Forty years later, I find myself still in this country. I have 
always accepted my parents decision for it was a decision made out of 
love and care and have always felt immensely fortunate to have been 
given first shelter and then innumerable opportunities growing up as a 
citizen of this great country. The Pedro Pan's history can only be 
compared to Elian's tragedy in the sense that we also were separated as 
children from our parents, our country of birth, our friends and 
everything we knew and loved. But our parents made the decision to send 
us--otherwise we would not have left. This is not entirely true in the 
case of Elian.
    Elian Gonzalez is a minor, who through absolutely no fault of his 
own, is caught in a tragedy that seems to never end. His mother made 
the decision to leave Cuba on a small leaking, crowded boat in order to 
arrive at the United States and in so doing, she died and lost all 
further legal rights. Elian has a father, one that remains in Cuba and 
that by all accounts has been deeply involved in his care and wants him 
with him. The child needs his father and the father needs and demands 
his child. No one in the world would dispute these rights. They are 
internationally recognized by all civilized nations. There seems to be 
an exception, and it is those who have always wanted to make a 
political issue out of any controversy between the United States and 
Cuba in their continuing battle over the outcome of a revolution that 
is now entering its 5th decade. They will go to any and all means to 
win what they consider a victory over Fidel Castro and so doing nothing 
matters, not even the most basic parental rights.
    This child is a minor whose only surviving parent happens to live 
in Cuba, a country ruled by a Communist government. Parental rights 
superseded and always have superseded ideology, country of birth, 
systems of government. The integrity of a family, the rights of 
parents, unless the parents are found to be abusive, are above all 
those other considerations. Elian Gonzalez has not requested to be a 
citizen of the United States and even if he had, Elian Gonzalez is a 
minor who cannot legally speak for himself. Only his legal guardian, in 
this case his father, can speak for him and so has been recognized by 
the Immigration and Naturalization Services of this country.
    This tragic event is profoundly shaking my confidence in our system 
of laws and I am quite distressed as to what message we in the United 
States are trying to convey to the rest of the world by keeping this 
child in this country after close to three months of his illegal 
arrival and after the Immigration and Naturalization Services of this 
country has ruled on behalf of his return to his father in Cuba.
    Why is this hearing taking place at all? What message are we in the 
United States trying to convey to the rest of the world, that a child, 
even with a loving-surviving parent who lives in a foreign country 
whose government we disagree with has no rights? That raising a child 
in the United States of America, even if it means separating him from 
his father, takes precedence before the integrity of the family and the 
sanctity of a parent's right? What is happening to our system of laws? 
The top law enforcement officer in this country, the Attorney General, 
has agreed with the decision of the INS in the case, that the only 
person to speak on behalf of the child is the father and the father 
wants him with him, why our inability to enforce the law? Have we 
become hostages to a small group that because of their hurt have lost 
all sense of reason and decency and only advocate revenge and victory 
at all costs? Are we going to allow one more victim in this 42 year old 
conflict?
    I firmly believe that the psychological damage that will be done to 
this child by separating him from his only surviving parent and having 
distant relatives raise him will be much more harmful that his being 
raised by his father and grandparents, no matter where they live and 
under what system of government. These are the members of his immediate 
family and we have no right to take their rights away.
    The last three months have been immensely painful for us Cuban 
Americans who through witnessing Elian's tragedy have had to once again 
relive our departure from our homeland close to 40 years ago. We have 
had to relive the pain of that initial separation from our loved ones 
and even though we were loved and cared for in their absence, we know 
that no one and nothing would have ever taken their place. This tragedy 
has also made us even more aware and conscious and has reinforced our 
belief in the importance of the family unit, in the integrity of 
keeping the family together for it is within this family unit that one 
gets the care and nurturing necessary to grow into a decent human 
being.
    Elian has already lost his mother. No one will ever take her place. 
I know from the experience of having lost my father at the age of 
seven. Don't allow him now to loose his father and become an orphan. 
Don't allow this process to be politicized! After all like Attorney 
General Janet Reno clearly said, ``this is all about a six year old''. 
It is about a six year old, who after witnessing the tragic death of 
his mother has a father and four grandparents who miss him and want him 
home.
                                 ______
                                 

    Prepared Statement of Elisa Greenberg, Cuban American Alliance 
                            Educational Fund

    First and foremost I'd like to express my gratitude and honor for 
the opportunity to address this august legislative committee. I am 
speaking to you as a mother, a grandmother, and as a concerned Cuban 
American citizen who has lived in this great country as a boarding 
school student in the 1950's, and later as a naturalized citizen. I 
have lived ``The American Dream.'' My American born husband and I have 
raised a beautiful family, ran a successful business that went public, 
from which now we are retired. I have served as an active member and 
sat on the board of several religious, civic, charitable and academic 
organizations. One of these organizations is the Cuban American 
Alliance Educational Fund. The Alliance is an inclusive organization 
dedicated to create an environment where the education in and the 
discussion of, Cuban American issues can take place. Some of our 
members are involved in humanitarian causes in Cuba, such as, our work 
with the physically handicapped. Others, such as myself, are involved 
in helping to create academic exchanges between American and Cuban 
universities. One of our most important endeavors is that of family 
reunification.
    This background should help explain my particular perspective on 
the Elian Gonzalez case; a perspective based on total respect for the 
laws of the country; a profound belief in our system of checks and 
balances; a philosophical conviction that the family is at the core of 
all social structures; and a committed dedication to try to bring 
lucidity, equanimity and respect to the discourse of U.S.-Cuba issues.
    Elian Gonzalez is not a symbol of freedom. He is no more 
responsible for recognizing life as a precious gift than the rest of us 
who, existentially speaking, are also called upon to answer for the 
quality of a life well lived. Elian Gonzalez is neither a means to 
punish a political enemy, nor a prize to be handed to a political ally. 
Elian Gonzalez is a six year old child who suffered the horrible 
experience of losing his mother under unimaginable circumstances, and 
now finds himself away from the only people he has known in his young 
life. The relatives in Miami, however well meaning, are but distant not 
well known relatives. He has a father who according to all reports is a 
caring, involved parent, even while divorced from Elian's mother. 
Elian's father who, according to our laws, is the person called upon to 
speak for this minor, has made clear his desire that his son be 
returned to him and be raised by him. This is fact, all else is 
conjecture.
    That the country to which Elian is to be returned is Cuba should 
not enter into consideration. Should American children in similar 
circumstances not be returned to the United States, because the 
government of those countries where they now reside consider our system 
of government evil? That his father is a member of the communist party 
and that the U.S. relatives are able to give Elian more material goods 
is also a non-issue. It would be a sad day in this country when 
parental acumen is measured by your social-economic level and/or your 
political affiliation. This would set an obviously dangerous precedent. 
This is a clear case involving parental rights and U.S. immigration 
policies. Our laws are clear on both issues. The sanctity of the family 
should always take precedence.
    American citizenship for the foreign born is earned through hard 
honest work, compliance of the laws of the land, and respect for such 
American values as the sanctity of the family. It should not be used in 
order to circumvent laws we wish to avoid, however tempting the 
situation or humanitarian or intent. That your decision would make 
Fidel Castro happy or sad is totally immaterial. He is the president of 
Cuba, not the president of the United States. However good, bad or 
indifferent a leader he may be should not be a deciding factor in this 
case for the U.S. Congress. Our elected officials foremost 
consideration should be the best interest of the people of the United 
States. I sincerely believe that it is in the best interest of the 
people of the United States that you abide by the expressed wishes of 
the Majority of U.S. citizens, and honor this father's request as our 
laws so indicate. To do otherwise would be a betrayal of our laws, of 
our responsibility as world leaders, and of our commitment to uphold 
our proclaimed values of the sanctity of the family.
                                 ______
                                 
                                         Havana, February 25, 2000.
    Uncle Manolo: I want to send you the letter that I sent to Janet 
Reno and Doris Meissner on February 22, which is the third one that I 
have felt obliged to write to them in less than a month, claiming the 
rights that they themselves have admitted are mine, and that they have 
not applied.
    As for the content of this letter, I don't need to explain much to 
you. In it, I have clearly defined my position at this time with 
respect to Elian's situation and the legal processes that are taking 
place, and especially my disapproval and my upset with the INS's 
refusal to move the child to his home and its failure to reply to any 
of my complaints.
    Apparently, they have no intention of doing anything that could 
cause them problems, but I am going to continue to fight with all my 
might until he is at my side.
    On my request to the INS, I alert you that what I have asked for is 
that they transfer temporary custody from Lazaro to you, until they 
return Elian to me. This is very different from appointing a guardian 
ad litem, with which I am not in agreement, because what that would do 
is to complicate and drag out the legal process.
    Precisely because the matter is so delicate, it is important that 
you consult with me about any step you are going to take, thereby 
avoiding possible complications.
    I want to thank you personally for all your support and the support 
of your family to get them to return the child to me, even at the 
expense of your health, your own tranquility and that of your family, 
which is also our family. Here, not only I, but all of us appreciate 
your outlook and your help in this battle to have Elian returned to us.
    The child is very found of you and you have had much more of a 
relationship with him than they have, even from the time when Elisa was 
pregnant and you even have videos of that.
    Take good care of yourself. Greetings to America and to the girls 
and grandchildren.
            With love,
                                                       Juan Miguel.

                                <greek-d>
</pre></body></html>
